<html>
<title> - THE LONG ARM OF INJUSTICE: DID A U.N. COMMISSION FOUNDED TO FIGHT CORRUPTION HELP THE KREMLIN DESTROY A RUSSIAN FAMILY?</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    THE LONG ARM OF INJUSTICE: DID A
                    U.N. COMMISSION FOUNDED TO FIGHT
                      CORRUPTION HELP THE KREMLIN
                       DESTROY A RUSSIAN FAMILY?

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-3]
                             
                             
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                             


                       Available via www.csce.gov
                       
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-032PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>                               


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
          

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                 
                                  
                                  
                                  
                    THE LONG ARM OF INJUSTICE: DID A

                    U.N. COMMISSION FOUNDED TO FIGHT

                      CORRUPTION HELP THE KREMLIN

                       DESTROY A RUSSIAN FAMILY?

                              ----------                              

                             April 27, 2018
                             
                             
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Co-Chairman, Commission on 
  Security and Cooperation in Europe.............................     1

Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     9

Hon. Sheila Jackson Lee, Commissioner, Commission on 
  Security and Cooperation in Europe.............................    19

                               WITNESSES

Bill Browder, Founding Director, Global Magnitsky Campaign for 
  Justice........................................................     5

Victoria Sandoval, Criminal and Human Rights Attorney 
  Representing the Bitkov Family.................................     9

Rolando Alvarado, Attorney Representing the Bitkov Family and 
  Professor of Law and Founding Partner, Corpolegal..............    12

                                APPENDIX

Prepared statement of Hon. Christopher H. Smith..................    25

Prepared statement of Hon. Roger F. Wicker.......................    28

Prepared statement of Hon. Marco Rubio...........................    30

Prepared statement of Hon. James Lankford........................    32

Prepared statement of Hon. Michael S. Lee........................    33

Prepared statement of Bill Browder...............................    34

Prepared statement of Victoria Sandoval..........................    39

Prepared statement of Rolando Alvarado...........................    45

                        MATERIAL FOR THE RECORD

Response of Bill Browder to questions for the record submitted by 
  Hon. James McGovern............................................    56

Letter from VTB Bank to Members of Congress......................    61

Affidavit of Harold Augusto Flores confessing that he was 
  threatened by CICIG............................................    63

Medical report on Anastasia Bitkov issued by the National 
  Forensic Science Institute.....................................    67

Medical report on Vladimir Rodriguez [Bitkov] after release from 
  a Guatemalan orphanage.........................................    70

 
                    THE LONG ARM OF INJUSTICE: DID A
                    U.N. COMMISSION FOUNDED TO FIGHT
                      CORRUPTION HELP THE KREMLIN
                       DESTROY A RUSSIAN FAMILY?

                              ----------                              


                             April 27, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:20 a.m. in Room 2172, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Co-Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present:  Hon. Christopher H. Smith, Co-
Chairman, Commission on Security and Cooperation in Europe; 
Hon. Randy Hultgren, Commissioner, Commission on Security and 
Cooperation in Europe; and Hon. Sheila Jackson Lee, 
Commissioner, Commission on Security and Cooperation in Europe.
    Witnesses present:  Bill Browder, Founding Director, Global 
Magnitsky Campaign for Justice; Victoria Sandoval, Criminal and 
Human Rights Attorney Representing the Bitkov Family; and 
Rolando Alvarado, Attorney Representing the Bitkov Family and 
Professor of Law and Founding Partner, Corpolegal.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. The hearing will come to order, and good 
morning.
    The Russian Government regularly pursues its vendettas 
beyond its borders, harassing and even murdering Russian 
emigres abroad, people who are on the Putin circle's target 
list for various reasons. The poisoning of Sergei and Yulia 
Skripal in England is one of the most recent examples to reach 
the news.
    The Kremlin's sadistic pursuit of the Bitkov family is, in 
its way, just as shocking as the cruel murder of Litvinenko and 
the attempted murders of the Skripals. The Bitkovs are still 
alive today, but they have been hounded for over a decade to 
the opposite ends of the world and beyond the limits of human 
endurance merely for resisting Putin's favorites who sought to 
take over their successful paper manufacturing company.
    More shocking, the facts of the case strongly indicate--and 
we will hear testimony on this today--that the United Nations 
International Commission Against Impunity in Guatemala, or 
CICIG, became deeply involved in the Kremlin's persecution of 
the Bitkov family--indeed, that CICIG acted as the Kremlin's 
operational agent in brutalizing and tormenting the Bitkov 
family.
    Congress has a special responsibility in this matter 
because the United States is one of the largest contributors to 
CICIG, to their budget. There has been little congressional 
oversight of CICIG. It is clearly time for that to change.
    In the 1990s, Igor and Irina Bitkov built the North-West 
Timber Company, acquiring and modernizing old factories to 
increase paper production. As their company grew, the Bitkovs 
took loans from several Russian state banks to finance further 
modernization. Their business prospered, grew to a value of 
hundreds of millions of dollars, and the family was approached 
by a powerful bank executive who sought to buy a majority share 
in the company at a significantly below-market rate. Other 
officials asked Irina to become politically involved in 
President Vladimir Putin's party. When the Bitkovs refused, 
things got very, very ugly.
    Their 16-year-old daughter, Anastasia, was kidnapped for 
several days, drugged, and repeatedly raped. Her parents 
ransomed her, paying the money to policemen who said that they 
were go-betweens to the kidnappers. Then the banks suddenly 
called in the loans, even though the Bitkovs had excellent 
credit. The family was threatened with imprisonment and death.
    Fearing for their lives, the family fled Russia. They found 
what they thought was legal refuge in Guatemala with the help 
of a Guatemalan law firm. They acquired Guatemalan passports, 
bought a house, learned Spanish, and gave birth to their second 
child, Vladimir. But the Kremlin caught up with them, and VTB 
Bank--one of Russia's biggest state-controlled banks, often 
referred to as Putin's piggybank--filed a complaint against 
them in Guatemala alleging use of false identification 
documents.
    While we don't know exactly what transpired internally to 
CICIG and the Guatemalan state agencies that work with them, it 
appears to have been taken up by the Guatemalan state and 
CICIG. In any case, the Bitkovs suddenly found themselves 
catapulted into what has become for them a horror that is 
without end.
    On January 15th, 2015, Igor, Irina, Anastasia, and Vladimir 
were awoken by an armed raid on their home. Seventy or so armed 
policemen woke them up, took them away, and spent 20 hours 
tearing apart their home and their office.
    It got much worse. The Bitkovs were put into cages for 
several days. Their daughter--remember, she had been kidnapped 
and repeatedly raped years earlier--was denied medication and 
now suffered a nervous breakdown. As the ordeal continued, she 
would later make multiple suicide attempts. Their infant son 
was torn away from them, not even permitted to stay with 
friends, and sent to an orphanage where he sustained facial 
injuries, a chipped tooth, conjunctivitis, lost the ability to 
speak. When the family friends recovered him, they found that 
even when given food little Vladimir immediately began hiding 
it under his shirt.
    I will not say more now about the Bitkovs' harrowing 
ordeal. Their lawyers will speak to that, as will Bill Browder. 
Suffice it to say Igor, Irina, and Anastasia have remained 
incarcerated since January 2015.
    In January of this year, despite an earlier Appeals Court 
ruling that the Bitkovs' alleged offense was only 
administrative in nature and punishable with a fine, Igor was 
sentenced to 19 years in prison, and Irina and Anastasia were 
sentenced to 14 years each. These sentences were far harsher 
than those given to Guatemalan officials who perpetrated the 
sale of passports. They are harsher than sentences given to 
rapists and to murderers.
    What was CICIG's role in all of this? I would note Bill 
Browder in his testimony will point out--and I quote him, in 
pertinent part--``Inexplicably, VTB Bank gained the legal 
status as an `interested party' in the Migration Case against 
the Bitkovs with the support of CICIG. In January 2015, a 
criminal case against the Bitkovs was opened at the direction 
of CICIG.'' And as he points out, as I pointed out as well, 
immediately after that, ``70 armed police officers raided the 
Bitkovs' home; arrested Irina, Igor, and Anastasia; and 
detained them in cages behind the parking garage in the main 
court building in Guatemala City.''
    We need to know how this happened. What was the complicity? 
Where has the investigation been by our government, by the 
United States Department of State Inspector General? There are 
a number of venues that would lend themselves to a very 
thorough investigation. Where's the investigation by the United 
Nations? All of these things are something that we are going to 
pursue very, very aggressively.
    CICIG was invited to participate in this event. And when 
you hear people say, Oh, they're a U.N. agency, they can't come 
and testify, let me just point out to everyone, I wrote our 
trafficking laws for the United States of America. It's called 
the Trafficking Victims Protection Act of 2000. It is our 
landmark law on combating sex and labor trafficking. When I 
discovered that in the Democratic Republic of Congo U.N. 
peacekeepers were raping little children--these are the 
peacekeepers--I convened four hearings, traveled to D.R. Congo, 
went to Goma where the peacekeepers were, and invited the U.N. 
to come and give testimony. Now, under our rules, they weren't 
sworn in or were welcomed as absolute witnesses to the 
committee, but we have a very good way of having that kind of 
testimony.
    They gave us a briefing. It's a distinction without a 
difference. And Jane Holl Lute, who was the top peacekeeping 
person--who was very much against what was happening there but 
worked for the United Nations, No. 2--she came, and she sat 
right there and gave a full, thorough accounting, and also a 
proactive approach as to what would be done to hopefully end 
this abuse by U.N. peacekeepers. I've done it other times. Kofi 
Annan's chief of staff also sat here and testified. So CICIG is 
invited. I want to ask them questions. But they declined to be 
here.
    Just yesterday afternoon, let me point out to our friends 
and our witnesses, the Constitutional Court of Guatemala, the 
country's highest court, upheld an earlier decision by a lower 
court that had granted Bitkov's appeal to be considered 
migrants, and therefore under international law not able to be 
tried as criminals. It is not yet clear what this ruling will 
mean. It seems to mean that the family could be released from 
prison, but that they also could be deported back to Russia. 
And that would be unconscionable.
    So I want to make, again, the appeal to the Guatemalan 
Government, to CICIG, to our government, to the United Nations, 
that this is the time to be focused on restoring this family as 
much as humanly possible and to provide them protection. They 
were refugees fleeing a Putin hit on them and their family, and 
to be treated like this is just--it's unconscionable.
    You know, I've been in Congress 38 years. I chair the Human 
Rights Subcommittee for the Foreign Affairs Committee, co-chair 
the Helsinki Commission and have been on that commission since 
1983, I've been to Russia many times when it was the Soviet 
Union. To know the way the Putin government follows people that 
they are in disagreement with, the way they rob and murder and 
rape--and again, we've got Bill Browder here, who motivated the 
passage of the Magnitsky Act--I just want to thank him and our 
witnesses for being here, because that takes bravery. People 
should see some of the emails we've gotten. That, too, is 
unconscionable, and I won't get into that now.
    With this hearing, I'd like to now introduce our 
distinguished witnesses, beginning first with Bill Browder, who 
has often been a witness before the Commission on Security and 
Cooperation in Europe. He is a true human rights advocate 
fighting for the weak and most vulnerable; has done it so 
effectively, starting with Sergei Magnitsky. And now the Global 
Magnitsky Act is a tool that the U.S. Department of State and 
even other governments are beginning to adopt as a way of 
holding individuals to account when they commit crimes against 
humanity and human rights abuses all over the world.
    Bill is the founder and CEO of Hermitage Capital 
Management, which was at one time the investment advisor to the 
largest foreign investment fund in Russia. Many of you may 
remember that authorities from the government of Russia 
arrested, tortured, and killed his lawyer, Sergei Magnitsky, in 
November 2009. And since then, Mr. Browder has sought justice 
for Magnitsky and, again, others persecuted by corrupt 
officials from the government of Russia and governments 
everywhere else.
    Without objection, his full resume will be made a part of 
the record. But I want to thank him for his extraordinary 
leadership.
    Then we'll hear from Victoria Sandoval, who is a criminal 
and human rights attorney who represents the Bitkov family. She 
has 15 years of experience in different areas of the law and 
provided technical advice to the Supreme Court of Justice of 
Guatemala.
    Then, Rolando Alvarado is the founding partner of a law 
firm who represents the Bitkov family. He is an expert in cyber 
matters and has received related training in the United States 
Department of Justice on those matters. Mr. Alvarado has 
advised Guatemalan Government ministers and legislators. And 
again, his full resume will be made a part of the record as 
well.
    But I'd like to now yield such time as he may consume to 
Mr. Bill Browder.

BILL BROWDER, FOUNDING DIRECTOR, GLOBAL MAGNITSKY CAMPAIGN FOR 
                            JUSTICE

    Mr. Browder. Co-Chairman Smith, thank you very much for 
inviting me here to this hearing. I'm here today to present the 
story of the Bitkov family to the Helsinki Commission.
    As you know, Sergei Magnitsky was my lawyer. When he was 
murdered by the Russian Government for uncovering corruption, I 
started a campaign for justice, which led to this commission 
spearheading the Magnitsky Act in 2012 and the Global Magnitsky 
Act in 2016.
    I also wrote a book about the Magnitsky story entitled 
``Red Notice.'' Following the publication of the book, many 
people got in touch with me from around the world to share 
their stories.
    And one of those people was a woman named Irina Bitkov. 
Irina Bitkov shared a horrific story of how she was persecuted 
in the same way as Sergei Magnitsky, and she and her family 
fled their persecutors from Russia and ended up in Guatemala--
to terrible results, which I will explain in greater detail.
    I'm here today to share the Bitkovs' story because they 
can't be here today to do it themselves. They are currently in 
Guatemalan prison, where Igor Bitkov, the father, is serving a 
19-year prison sentence; Irina and her daughter, Anastasia, are 
serving 14-year prison sentences for passport violations.
    I'd like to point out that I have no business relationships 
with the Bitkovs. I am receiving no compensation for my 
advocacy here today. I'm here today because of the terrible, 
unconscionable injustice that they've been subject to, and I 
want to do something about it.
    The Bitkov story starts in the 1990s, when Igor and Irina 
Bitkov became the owners of a successful pulp and paper 
business called the North-West Timber Company. Over the 1990s 
they built their business, and it reached $80 million in 
profits, and it was valued at roughly $400 million.
    In the course of their business, the Bitkov family, through 
their company, obtained loans from Sberbank, VTB, and Gazprom, 
all state-owned banks, to upgrade their facilities. After the 
loans were given, one of the bankers approached the Bitkovs and 
asked them to sell 51 percent of their business for $25 
million. Obviously, since their business was worth many 
multiples of that, they refused.
    Following this unwanted takeover request or attempt, a 
terrible trauma befell the Bitkov family. At the time, their 
daughter, Anastasia, was 16 years old. She was kidnapped in St. 
Petersburg. The kidnappers demanded a ransom, which took the 
family 3 days to accumulate. They paid the kidnappers the 
ransom. Anastasia was released. But when she was safely back 
home, the family discovered that she had been drugged and 
repeatedly raped by her kidnappers. The ordeal left Anastasia 
deeply traumatized and set off a cascade of psychiatric 
ailments, which require medication and treatment to this day.
    Following that, and in a further escalation of the attempts 
to take over their company, the Russian state banks 
simultaneously called in their $158 million of loans, forcing 
the company into bankruptcy. During the bankruptcy proceedings, 
the equipment of their facilities was sold at a fraction of its 
true value.
    The Bitkovs were then told that they would be imminently 
arrested. This was the moment that the Bitkov family decided to 
flee Russia. First, they traveled to Latvia. Then they traveled 
to Turkey. And in Turkey, they looked around the world to seek 
a country where they could find refuge and start a new life 
safe from the persecution of Russians. They ended up choosing 
Guatemala because Guatemala had no extradition treaty with 
Russia, and they felt that they could be safe in Guatemala.
    They found an advertisement on the internet from a Latin 
American law firm called Cutino Associates that specializes in 
immigration law and advertised its expertise in organizing 
Guatemalan immigration for $50,000 per person. The family 
engaged Cutino and began the process of becoming immigrants to 
Guatemala.
    In their initial communications with Cutino, they explained 
that the reason for their immigration was to avoid persecution 
in Russia. Cutino explained to them that they could change 
their names in their immigration applications to avoid 
detection by the Russians. Cutino then submitted for the family 
papers, and the Guatemalan immigration services issued them new 
documents in new names. Anastasia kept her original name, 
hoping that because she was not targeted by the Russian 
authorities that she would be okay.
    The family then began a new life in Guatemala. Igor became 
a high school math teacher at the Brillo De Sol School in 
Antigua. Irina became a drawing teacher at the same school. And 
Anastasia began a career in fashion after regaining some of her 
confidence after her horrible ordeal in Russia. In January 
2012, Irina Bitkov gave birth to a baby boy named Vladimir. It 
appeared that after their terrible ordeal with the Russian 
authorities had come to an end they could put that chapter 
behind them.
    Unfortunately, their dream of a new life came crashing down 
in late 2013.
    Investigators working for VTB Bank tracked down the Bitkovs 
in Guatemala. The head of the VTB Bank, Andrey Kostin, 
personally signed a power of attorney to Henry Comte, one of 
the country's most prestigious attorneys in Guatemala and an 
alternative judge on the Guatemalan Supreme Court, to assist 
VTB in pursuing the Bitkovs in Guatemala.
    VTB Bank and Comte's first attempt was to go after the 
Bitkovs in filing a criminal complaint with the Attorney 
General's Office of Guatemala claiming that VTB had been 
defrauded by the Bitkovs in Russia. VTB presented photocopies 
of forged documents in the Guatemalan court. Those documents 
already had been rejected as forgeries in similar proceedings 
in Russian courts. When the Guatemalan court requested 
originals, VTB withdrew their criminal complaint.
    VTB and Henry Comte then came up with a Plan B to go after 
the Bitkovs. For several years before 2013 in Guatemala, there 
had been an ongoing investigation into human trafficking and 
Guatemalan officials' complicity with human traffickers in the 
country. It was called the Migration Case, and it was supported 
by a U.N. organization called CICIG, whose mandate was to go 
after organized crime networks who previously enjoyed impunity 
in Guatemala.
    VTB and Comte successfully convinced CICIG to focus on the 
Bitkovs as part of the Migration Case in spite of the fact that 
the Bitkovs were clearly not part of any organized network of 
traffickers. Inexplicably, VTB gained the legal status as an 
``interested party'' in the Migration Case against the Bitkovs 
with the support of CICIG. In January 2015, a criminal case 
against the Bitkovs was opened at the direction of CICIG. 
Immediately after, 70 armed police officers raided the Bitkovs' 
home; arrested Irina, Igor, and Anastasia; and detained them in 
a cage behind the parking garage of the main court building in 
Guatemala.
    While they were being held, Anastasia was deprived of her 
anti-depression medications and she had a severe psychiatric 
breakdown. Anastasia and her mother were moved to a hospital 
under armed guard, and Igor was put in pretrial detention at 
the Mariscal Zavala prison while the case awaited trial.
    The Bitkovs arranged for their family lawyer, who is 
sitting with us today, Rolando Alvarado, to be the guardian for 
their 3-year-old child, Vladimir, while they were incarcerated.
    In spite of Mr. Alvarado's valid guardianship papers, the 
Prosecutor of Guatemala filed a motion with the court calling 
for Vladimir Bitkov to be placed in a state orphanage instead.
    At this point, the Russian Government also got involved. 
Pavel Astakhov, the Russian Government's ombudsman for 
children's rights, publicly called for Vladimir Bitkov to be 
returned to Russia to be put into a Russian orphanage. The 
Russian foray failed because Vladimir is only a Guatemalan 
citizen and could not be returned to Russia. However, the 
Guatemalan prosecutor's motion succeeded and Vladimir was 
placed in a state orphanage.
    The family desperately applied to reverse the decision and 
get Vladimir out of the orphanage. It took 42 days for that 
application to be heard. When Vladimir finally emerged, he was 
examined by medical experts who found he had an upper 
respiratory infection, severe inflammation of the middle ear, 
conjunctivitis in both eyes, scars along the left eyebrow, and 
chipped front teeth. They concluded that he suffered from 
physical and psychological abuses in the orphanage.
    In the meantime, the case against the Bitkovs for passport 
violations moved through the courts. They were formally 
indicted as part of the CICIG Migration Case in April 2015.
    The Bitkov family appealed the indictment in the Appeals 
Court, arguing that they were migrants and could not be subject 
to criminal prosecution applicable to the traffickers. In 
December 2017 the Guatemalan Appeals Court ruled in favor of 
the Bitkovs, declaring that any passport irregularities were 
administrative offenses punishable by a fine and as migrants 
they should not be under criminal penalty.
    However, CICIG and VTB were not happy with this decision, 
and both immediately filed appeals against the court decision 
that would have freed the Bitkovs. While their appeal was 
pending, the decision was not in force.
    A few days later, on January 5th, 2018, the Guatemalan 
District Court found Igor, Irina, and Anastasia Bitkov guilty 
as users of the criminal network in the Migration Case. The 
court sentenced Igor to 19 years in prison, and Irina and 
Anastasia to 14 years. CICIG trumpeted their court victory on 
their website, pointing out that they prosecuted 39 people from 
the criminal network, including the Bitkovs.
    I understand that the 19-year prison sentence that Igor 
Bitkov was given was greater than sentences for manslaughter, 
rape, burglary, and fraud in Guatemala. The sentences that all 
three of them were given appears to exceed the sentences of 
many of the government officials in Guatemala and traffickers 
who were part of the human trafficking network.
    There was no evidence that the Bitkovs bribed any 
government official or were involved in any corruption. The 
Bitkovs, who did not speak Spanish and did not know anyone in 
Guatemala on arrival, relied on the law firm Cutino Associates, 
who presented themselves as legitimate migration lawyers. It 
also appears that nobody from Cutino Associates who organized 
their passports and settlement documents has ever been 
prosecuted. No other customers of Cutino have been tried, 
convicted, and sentenced like the Bitkovs. In the list 
presented by CICIG, which includes 39 people in the Migration 
Case, 36 were low- and middle-level government officials from 
different Guatemalan Government bodies and a few ``coyotes'' 
who physically moved people through Guatemala.
    So what is going on here? There are two big Russian themes 
in this case, neither of which is unusual.
    First, in Russia, people who run successful businesses are 
routinely victimized through a process called reiderstvo. I was 
a victim of reiderstvo, and so were the Bitkovs. It is a 
standard practice in Russia where organized criminals work 
together with corrupt officials to extract property and money 
from their victims. There are literally hundreds of thousands 
of businessmen in Russia who are victims of this as well.
    The second theme is the abuse of international 
institutions. The Russian Government routinely abuses 
international institutions in order to persecute its enemies 
who are not inside of Russia. In my case, the Russian 
Government tried six times to have Interpol arrest me after the 
Magnitsky Act was passed. The Russian Government also 
successfully recruited a senior official inside the Swiss 
Federal Police to stymie a Swiss criminal investigation into 
money laundering by Russian officials in the Magnitsky case. 
The Russian Government has succeeded in getting the deputy 
attorney general of Cyprus in charge of mutual legal assistance 
and extradition affecting the Magnitsky case and many other 
politically sensitive cases to inappropriately assist the 
Russian Government in pursuing their enemies in Cyprus. This is 
not uncommon.
    In my opinion, the Russian Government succeeded in 
compromising CICIG and the Guatemalan prosecutor for their own 
purposes in the Bitkov case. CICIG and the prosecutor's office 
have jointly taken up the Russian Government's vendetta against 
the Bitkovs with no good explanation. CICIG did not distance 
itself from the Russian persecution. They touted it on their 
website and they actively tried to overturn the Bitkovs' 
vindication by the Appeals Court.
    Nor has VTB tried to hide their role in this case. In spite 
of the fact that VTB obtained no financial recovery for their 
alleged financial dispute with the Bitkovs, they became an 
interested party in a case involving something that had nothing 
to do with them in order to vindictively punish Igor Bitkov and 
his entire family. In The Wall Street Journal on April 4th, 
2018, Igor Kostin, the chairman of VTB, says: ``VTB's actions 
relating to the Bitkov family is an example of standard 
procedure in resolving financial business disputes through the 
available legal channels.''
    This is an appalling case in which the Bitkov family 
deserves justice, and the United States has an opportunity to 
deliver them justice. CICIG is a U.N. organization in which 
approximately 50 percent of their budget comes from the U.S. 
Government. I do not believe that you or anyone in the U.S. 
Congress or the U.S. Government ever envisaged that U.S. tax 
dollars would be spent to support a Russian Government 
persecution of a family fleeing that persecution in Guatemala. 
I would recommend that CICIG's funding be suspended until this 
situation is resolved.
    When I began this process of advocating for the Bitkov 
family, I discovered that CICIG is a highly contentious issue 
in DC and around the world. There are some people who are pro-
CICIG and there are some who are anti-CICIG. Up until 2 months 
ago, I had never heard of CICIG. I came into this case with no 
prejudices one way or another. I've gone where the evidence has 
led. And so far, the evidence leads toward the conclusion about 
the involvement of this organization in the Bitkovs' 
persecution.
    As journalists from The Wall Street Journal and other news 
organizations have started to investigate, CICIG has avoided 
answering a number of crucial direct questions about their role 
in the Bitkov case and their support of VTB. When CICIG was 
invited to give evidence to Congress they declined, claiming as 
a U.N. institution they were not accountable to anybody in 
Congress.
    They can't have it both ways. They can either be the heroic 
anti-impunity organization that their mandate sets them out to 
be or the situation at CICIG needs to be cleaned up.
    Thank you very much.
    Mr. Smith. Thank you so very much for your very incisive 
testimony and recommendations.
    We are joined by Commissioner Hultgren. Do you have 
anything you'd like to offer at the opening?

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. No. I want to hear as much as I can, so thank 
you. I yield back.
    Mr. Smith. Thank you so much. I would just note that 
Congressman Hultgren is also the co-chairman of the Tom Lantos 
Human Rights Commission and a very distinguished member of our 
commission. So it's so great to have you here. Thank you.
    I'd like to now recognize Ms. Sandoval.

     VICTORIA SANDOVAL, CRIMINAL AND HUMAN RIGHTS ATTORNEY 
                 REPRESENTING THE BITKOV FAMILY

    Ms. Sandoval. Good morning, Chairman Smith. Good morning, 
Commissioner Hultgren. Distinguished members of the Helsinki 
Commission, for me, it is an honor to be invited to this 
hearing as a witness of the Bitkov Case.
    My name is Victoria Sandoval. I am a lawyer, and I have 
been working with the Bitkovs since January 2015. I knew the 
Bitkovs back in 2011, when they came to live at the same 
neighborhood I was living. I could see how they were--they were 
a happy family raising his kid, Vladimir, into his Russian 
culture.
    On January 15th, 2015, I saw more than 16 official vehicles 
from Ministerio Publico, CICIG, and Policia Nacional Civil. 
They were raiding the Bitkovs' house, and they were being 
arrested. The next day I saw the Bitkovs' house had been locked 
up and was being guarded by two policemen. Even though it was 
guarded, their house was looted completely.
    They were transferred to the carceletas at the courthouse--
the carceletas as the cages Bill Browder just described. These 
are located at the basement of the courthouse, and people 
should not stay there for more than 24 hours. But the Bitkovs 
were kept in for 5 days, Irina and Anastasia; and 9 days, Igor. 
The Russian ambassador didn't show any concern about his fellow 
citizens.
    Anastasia, whose life depends on the regular intake of 
medication, was deprived of them.
    A judge ordered that Anastasia and Irina be transferred to 
a psychiatric hospital due to Anastasia's psychiatric 
breakdown. The Sistema Penitenciario in charge of that transfer 
refused to do it for 4 days. It wasn't until Anastasia's health 
became worse that they obeyed that order. Along with 50 agents 
of the Sistema Penitenciario, they were transferred to a 10-
room hospital. The hospital declined receiving them because 
they feared such high number of officials will scare their 
other patients. So they were returned to the courthouse, where 
they were locked in an annex to the men's area--only separated 
by a fence, which means that the men will have direct contact 
with them. Not even at the bathroom did they have any privacy. 
That meant torture for them. On the fifth day Irina and 
Anastasia were finally transferred to the Hospital Concepcion, 
where they stayed for one year, guarded by two armed guards.
    In Igor's case, at the carceleta he was deprived of proper 
sleep. After 9 days he was taken in front of the judge to give 
his first testimony. He was completely dumbfounded, had not 
been provided with any translator. His Spanish was not good at 
that time.
    At the hearing, CICIG's senior attorney, Claudia Gonzalez 
Orellana, clearly supported VTB Bank participation by stating 
that the attorney acting on behalf of the VTB Bank actually has 
competency due to the offenses that happened in Russia, and 
that the Bitkovs are avoiding justice in that country. They 
came to Guatemala and committed other offenses, and none of 
this can be left in impunity. We consider that the offenses 
that took place in Russia and in Guatemala are related.
    I have an audio that I ask to be entered in the records. 
\1\
---------------------------------------------------------------------------
    \1\  Note: As of press time, the audio was no longer available 
online.
---------------------------------------------------------------------------
    Mr. Smith. Without objection, it will. So ordered.
    Ms. Sandoval. When Igor was already at Mariscal Zavala, he 
was visited by the child prosecutor of the Procuraduria General 
de la Nacion, Harold Augusto Flores Valenzuela. He told him 
that he had been called and visited by CICIG officials that 
told him that he had to do everything in order to send Vladimir 
to an orphanage, that he couldn't be sent with guardians. 
That's why Vladimir was sent to the orphanage Amor del Nino, 
where he was abused. Harold Flores saw that the reports on 
Vladimir's guardians were just fine and he chose to ignore 
them. Also did Judge Maria Belen Reyna Salazar. And, in 
consequence, Vladimir was sent to that orphanage. Flores also 
told that he was threatened by CICIG's officials that if he 
didn't comply he will be fired or prosecuted.
    All this is written in an affidavit that Igor signed that I 
ask that also be added to the records, please.
    Mr. Smith. Without objection.
    Ms. Sandoval. Okay.
    Anastasia's psychiatric disorder were triggered by her 
kidnapping in Russia in which she was repeatedly raped and 
drugged. She has been diagnosed with bipolar affective disorder 
and borderline syndrome. According to the psychiatric reports 
of the National Institute for Forensic Science of Guatemala, 
INACIF, that also has stated that Anastasia should not be sent 
to a prison because it could cause her to make further attempts 
to commit suicide. She has already attempted five times to 
suicide.
    Ignoring this, the president of the tribunal, Judge Yassmin 
Barrios, ordered to send her to the Mariscal Zavala prison for 
14 years, the judge threatening her, as well as the warden of 
the prison, with sending her to the Federico Mora Psychiatric 
Hospital if she shows any sign of her illness.
    I also have the link to a video that was recorded by BBC 
where it shows the condition of this National Mental Hospital, 
qualifying it as the worst in the American continent. So I ask 
it to be added at the records. \2\
---------------------------------------------------------------------------
    \2\  https://www.bing.com/ videos/
search?q=hospital+psiquiatrico+federico+mora+bbc&&view= 
detail&mid=C8314C4E3EFF3B347152C8314C4E3EFF3B347152&&FORM=VRDGAR; 
https://www.bing.com/videos/
search?q=hospitalde+salud+mental+federico+mora+bbc&&view= 
detail&mid=F15517CDCB9A2C709187F15517CDCB9A2C709 187&&FORM=VRDGAR
---------------------------------------------------------------------------
    Mr. Smith. Without objection.
    Ms. Sandoval. Thank you.
    Ignoring this, the Bitkovs were sentenced for 19 and 14 
years in prison last January 5th by the tribunal proceeded by 
Judge Yassmin Barrios. There are many similar cases of people 
accused of similar offenses, but they have all been treated 
very differently.
    Among them I will like to describe you this one that is 
rather shocking. In February 2018--that means 1 month later 
after the Bitkovs' verdict--a verdict was issued by the same 
tribunal proceeded by Judge Yassmin Barrios. Two members of the 
dangerous and notorious MS-13 were condemned to suspended 
prison for 5 years and no expulsion for the same offenses. 
These members of the MS-13, Israel Antonio Cabrera, whose alias 
is ``the demon,'' and Mauricio Antonio Rivas, alias ``the 
goat,'' were from El Salvador, and there they have been accused 
of murdering 25 people. Now they are free in Guatemala's 
streets.
    I also have this ruling that I will ask to be also added to 
the records.
    The evil within this case is shocking. The Kremlin, through 
VTB Bank, has conspired in the Guatemalan justice system to, 
one, separate a 3-year-old boy from his family and send him to 
an orphanage where he was tortured; two, to lock up in a prison 
a young woman with a psychiatric disorder; and finally, and 
third, condemn with ridiculous punishment a family who went to 
Guatemala in order to flee Russian persecution that was 
threatening to destroy their lives in contravention of the 
Palermo Convention, Guatemalan migration law, and an order from 
the Constitutional Court.
    Anastasia told me once: I have suffered a lot. My life has 
never been even close to normal. I want to fight so my little 
brother can have a normal life, and he still has still some 
time to do that.
    Thank you very much.
    Mr. Smith. Thank you so very much for your testimony and 
for your bravery in helping the Bitkov family.
    I would like to now yield the floor to Mr. Alvarado.

    [Note: Mr. Alvarado's remarks are made through an 
interpreter.]

 ROLANDO ALVARADO, ATTORNEY REPRESENTING THE BITKOV FAMILY AND 
       PROFESSOR OF LAW AND FOUNDING PARTNER, CORPOLEGAL

    Mr. Alvarado. Good morning, Co-Chairman Smith, 
distinguished members of the Helsinki Commission, and everyone 
here in this room. It's an honor for me to have been invited to 
this hearing to bear witness in the Bitkov case.
    I am knowledgeable about what has transpired in the case 
involving the Russian family, the Bitkov family, because I 
personally met Irina Bitkova and Anastasia Bitkova 2 years 
before they were arrested. I am knowledgeable about the facts 
surrounding their case because I was the lawyer of their family 
and currently I have guardianship over their child and have had 
since 2015--that's Vladimir Bitkov, who is now 6 years of age. 
That is the son of Igor and Irina.
    So the activities for which the Bitkov family have been 
accused are as follows: For the use of a passport and identity 
documents that were issued by the Guatemalan state, and that 
CICIG and the Public Ministry of the Office of the Attorney 
General now consider to have been issued illegally.
    So these activities do not constitute a crime; however, 
CICIG and the Public Ministry brought criminal charges which 
were egregiously disproportionate, as if they had been crimes 
of drug trafficking or terrorism, crimes of high impact. 
Furthermore, CICIG brought criminal charges or pursued criminal 
proceedings before special courts known as courts for cases 
involving high levels of risk--all this for what amounts to 
migratory law misdemeanors.
    CICIG has no jurisdiction to take part as a complainant 
against the Bitkov family because the mandate given it by the 
United Nations and by the government of Guatemala establishes 
that said commission would only have jurisdiction to 
investigate crimes committed by members of illegal security 
forces or clandestine security bodies or forces. And the Bitkov 
family was not accused of being a part of these illegal 
security forces, and therefore does not fall under the aegis of 
the authority entrusted to CICIG, which means that CICIG has 
overstepped its boundaries in exercising these legal powers, 
which is tantamount to the abuse of authority.
    Furthermore, CICIG, in violating the agreement that gave 
rise to its creation, is also in violation of the Palermo 
Convention because it has deliberately accused or charged the 
victims in this case--the immigrants, the Bitkov family--and 
did not bring charges against the perpetrators of these crimes, 
which is the Cutino international organization, which is a 
trafficking organization.
    Despite the fact that the activities that the Bitkov family 
were accused of don't constitute any crime, the following 
ensued: On January the 15th of 2015, CICIG and the Public 
Ministry, with the support of the national police, carried out 
three searches. I personally witnessed the search that was 
conducted in the Bitkov family home. It lasted 20 hours and 
close to 70 police officers who were heavily armed took part in 
that search. They went into their rooms while they were 
sleeping and they didn't even let them get dressed in privacy. 
They weren't allowed to call their lawyer until 3 hours after 
the beginning of the search.
    I asked the prosecutor, Stuart Ernesto Campo Aguilar, why 
there were so many police officers, and he told me that this 
case stemmed from a multimillion-dollar fraud case that the 
Bitkov family had committed against a Russian bank, and it was 
the Russian bank that was bringing criminal charges against the 
Bitkov family.
    So they seized vehicles, jewelry and the personal 
belongings of the Bitkov family. And after that, the national 
police actually looted their home. This search lasted until 
1:40 in the early morning of the next day, when it finally 
ended. And that was when they woke up Vladimir, the little boy, 
and they put him in a pickup truck headed to the courts that 
were open at that hour. The child was only 3 years old. All 
this information can be found in the search warrant, which I 
would ask be admitted on the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Alvarado. So the judge in chambers, the judge on that 
shift at that time, granted me custody of the child, and also 
appointed, as custodian of this child, the baby sitter Veronica 
Gonzalez. On February the 10th of 2015, Judge Maria Belen Reyna 
Salazar illegally ruled that the child be taken away from their 
legal guardians--from us, their legal guardians--alleging that 
we were not the child's relatives and that even the identity of 
their--of the child's parents was in question. That doubt or 
question about the child's identity stemmed from a report that 
the Special Prosecutors Office Against Impunity, FECI, had sent 
in which it states that the identity of Vladimir was flawed. 
And that is the rationale under which the child was sent to the 
orphanage called Amor del Nino, Love of the Child, where he was 
kept for 42 days.
    The judge denied any visitation rights to little Vladimir, 
which means that he was left entirely alone. He emerged from 
this orphanage with a broken tooth, with a scar above his 
eyebrow, with conjunctivitis, and with amibus [ph]. I have the 
medical records of the injuries sustained by Vladimir. And I 
would ask that they be admitted to the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Alvarado. From the outset of these proceedings, the VTB 
Bank justified its participation in the proceedings, alleging 
that it had been defrauded in Russia by the Bitkov family. The 
involvement of the VTB Bank was always supported and defended 
by CICIG through CICIG's agent that had the power of attorney 
to operate on CICIG's behalf, Claudia Gonzalez Orellana, who 
declared to a judge that the facts that occurred in Russia were 
related to facts that occurred in Guatemala, and therefore VTB 
Bank should be allowed to defend its interests in Guatemala.
    The Bitkov family said that the identity documents had been 
processed by a law firm known as Cutino International. Cutino 
was never investigated by CICIG, despite the fact that the 
Bitkov family reported Cutino, requesting that it be 
investigated, and offering sufficient evidence with which to 
identify the responsible parties. Igor declared that the 
payment made to Cutino was done via bank transfer, and asked 
CICIG to look into that, to trace that transfer. It was also 
reported that the Cutino case, or its involvement, was also 
reported directly to Commissioner Ivan Velasquez. And we have a 
video showing the conversation between Commissioner Velasquez 
and Irina that also bears witness to the political persecution 
perpetrated by Russia.
    So we have sufficient evidence. And we provided that 
evidence to Commissioner Velasquez, as well as a letter written 
by Senator Roger Wicker of 2015, yet the commissioner did not 
act on that evidence presented. CICIG then participated as a 
complainant against the immigrants, the Bitkov family, and 
asked for a 19-year prison sentence. And such a sentence has 
never been meted out against any other foreigner.
    During the debate, the manager of the company that issued 
the passports stated that thousands of passports are processed 
irregularly on a regular basis, and in favor of foreign 
nationals. Furthermore, the witness Carlos Rene Gomez Diaz 
stated in witness testimony that the General Office on 
Migration issued between one and three illegal passports every 
week in favor of foreign nationals. However, the Bitkov family 
was the only family ever to be given prison sentences. And the 
few foreigners who were ever tried only received commuted 
sentences. That is to say that instead of going to jail, all 
they had to do was pay a fine and go back to their country of 
origin.
    Another illegal act that emerged during the criminal 
proceedings was that before the Bitkov family was found guilty, 
during the discussion a superior constitutional court granted a 
writ of amparo in favor of Igor Bitkov, and in the sentence 
said that migrants cannot be criminally tried. CICIG appealed 
that sentence, and the court did not follow through--did not 
adhere to the ruling that had been issued regarding the prior 
appeals. Anastasia Bitkova was sent to prison, despite the fact 
that she suffers a psychiatric illness, and that as a result of 
this her life is in danger.
    Yesterday the Constitutional Court, the highest court of 
Guatemala, issued a sentence whereby it declares that the 
Bitkov family are immigrant and they never should have been 
criminally tried. This confirms the human rights violations 
that were perpetrated against the Bitkov family that I have 
described in my witness testimony. Furthermore, the human 
rights ombudsman's office has said that the rights of the 
child, the rights of Vladimir, the boy, were also violated by 
the judge who illegally sent him to an orphanage.
    So everything that I have said can be legally 
substantiated. And all of these illegal acts that destroyed the 
Bitkov family were carried out at the request of CICIG and the 
Public Ministry. And these are acts that cannot go unpunished--
cannot remain in impunity.
    Thank you very much.
    Mr. Smith. Thank you very much for your testimony and for 
your very incisive words today. Let me just begin the 
questioning with Mr. Browder first.
    Thank you for giving us a backdrop of how the Russian 
officials act--reiderstvo, as you said. And you also pointed 
out that you have been victimized by this as well, so you speak 
from a first-
person account. Six times the Russian Government tried to get 
Interpol to arrest you for your incredible work on the 
Magnitsky Act. I would just point, parenthetically--and the 
press might want to take note of this--I've traveled to the 
Soviet Union when it was the Soviet Union, on behalf of the 
Soviet Jews, on behalf of religious freedom. And always got a 
visa. When I worked to get the Magnitsky Act passed, I was 
denied a visa. And I haven't gotten once since.
    I had hoped to go to Russia to talk and work with them in 
combating human trafficking. I've worked with a number of NGOs 
in Moscow and elsewhere that combat human trafficking and help 
Russian women who are victimized. And yet, the long arm of this 
corruption denied me--continues to deny me a visa to go to 
Russia. That's nowhere near as burdensome and threatening, of 
course, as what you have faced and so many of these others.
    You also point out that thousands of businessmen are in 
jail who are victims of this. And that's the best-kept secret 
out there. Some journalists have pointed this out, but this is 
common practice. It's not an exception. It's a common practice.
    And so, if you could, Mr. Browder--you also talked about 
how a Swiss Federal Police--they successfully recruited a 
senior official inside the Swiss Federal Police, to stymie a 
criminal investigation into money laundering. So this is a 
modus operandi that is global. And this is a manifestation that 
has happened with CICIG complicity in Guatemala.
    How do they do it? Do they pay people? You did point out in 
your testimony that a very distinguished attorney was hired by 
VTB Bank, Henry Comte, as you point out.
    And I mean, so a plan was hatched. Obviously, or likely, 
huge amounts of money were conveyed to interested parties. Then 
all of a sudden, with the support of CICIG, they are part of 
the migration case. And again, when it comes to trafficking, I 
take a backseat to no one, because I've written four major laws 
on combating human trafficking, including our first. And 
there's nowhere here any suggestion that the Bitkovs are 
involved with trafficking.
    They are involved in trying to protect their children 
from--and just let me say parenthetically that Pavel Astakhov, 
the Russian Government's ombudsman for children's rights, cut 
off inter-country adoptions, which had been a lifeline for 
Russian children finding homes--loving homes in the United 
States and elsewhere. But that was a total reaction to the 
Magnitsky Act, that we were finally holding people who are 
corrupt and commit serious, serious human rights abuses 
personally responsible for their crimes.
    So if you could further elaborate on that backdrop, because 
the question is why and whether or not there were bribes 
involved, who was paid, why did they become a part of this? 
Nineteen years, fourteen years prison sentences. You know, I've 
never seen anything like this, except in gulag states. You 
know, Guatemala is not a gulag state, but they certainly have a 
situation that is outrageous. So if you could give us--talk 
about that----
    Mr. Browder. That's an excellent question, and a crucial 
question. The Russian Government has unlimited resources that 
they're using to corrupt and infiltrate international 
institutions. We have evidence of their involvement in 
corruption in the Swiss Federal Police, as I mentioned. We have 
evidence of involvement in the corruption of the deputy 
attorney general of Cyprus. And we have evidence of their 
involvement in the corruption of international organizations 
like the Olympics. We have evidence of their involvement in all 
sorts of activities like that.
    And what the Russian Government does is, they poke around 
to see who is susceptible to corruption and bribery. And many 
people say no. But they find people who say yes. And they have 
plenty of money to do it. They know exactly how to do it, 
because they do it all day, every day inside their own country. 
And so they're experienced at doing it. And the Putin regime 
does it in foreign countries. And they find willing takers.
    And what makes it more pernicious is that once the person 
has become involved in their corruption, they threaten them 
with murder if they stop doing it. They say: You've taken our 
money. If you stop doing the things we ask you to do, not only 
will we expose you, but we will kill you. And so people become 
very scared of backing down. And we see a lot of situations 
where people have been corrupted and they dig their heels in, 
even after they've been exposed, because they're so afraid of 
the people who corrupted them in the first place.
    I do not have any direct evidence of why CICIG was involved 
in this inexplicable persecution of the Bitkov----
    Mr. Smith. But there is no doubt that they are.
    Mr. Browder. The Bitkovs have been inexplicably persecuted 
by CICIG, with the involvement of VTB Bank. That we have 
evidence. That evidence has been presented today. I don't know 
why. But it tends to be that when people behave irrationally, 
when this organization which is supposed to be an anti-impunity 
human rights organization is persecuting a Russian family who 
is fleeing for their life, the obvious question is why. And we 
can't leave it unanswered.
    And I've seen the answers that CICIG has tried to give for 
justifying themselves, and none of those answers make any sense 
or address the crucial questions. Why were they supporting VTB 
in court hearings? Why did they, together with VTB, appeal the 
exoneration of the Bitkovs by the Supreme Court? None of these 
questions have been answered by them. And they refused to show 
up here today to answer those questions. And you need to get 
answers to those questions.
    Mr. Smith. Well, I would assure you, we will ask them again 
to come. I will pose a series of questions in total 
transparency. We want to know when was the decision made? By 
whom, or how many people were involved in that decision, 
whether or not there was any kind of conveyance of financial 
money of any kind, anything of value. And as I said in my 
opening, there needs to be a full and robust investigation of 
CICIG's complicating in this persecution of a family that was 
trying to evade a modus operandi of the Russian corruption 
system. And this is how they do it. And they do it everywhere 
they can get away with it. And they should not be a part of 
that in any way, shape, or form.
    I would point out, you said in your statement that the Wall 
Street Journal April 4th article--and you quote Igor Kostin, 
the chairman of the VTB Bank, where he says, ``VTB's action 
relating to the Bitkov family is an example of standard 
procedure in resolving financial business disputes through the 
available legal channels.'' Persecute, give massive prison 
sentences, put a young woman named Anastasia, a daughter, tried 
to abduct--and I would call this a kidnapping--of a young boy, 
who was not even Russian--he's Guatemalan, born in Guatemala. 
To kidnap him back to an orphanage, and the very man doing it 
is the one who ended inter-country adoptions in Russia.
    We got a letter to the commission from the VTB Bank, from 
the general counsel. And he says that VTB has been a model 
corporate citizen, VTB has worked to combat corruption, every 
action we have taken comports with global norms. Well, let's 
hope that they are completely transparently open to the 
investigation and will answer every question and provide every 
set of documents asked and requested by either the U.S. 
Government or any other responsible body in trying to get to 
the bottom of this. Because this kind of assertion, when people 
are suffering so cruelly in prison as we meet here today, is 
beyond comprehension.
    Let me ask you, if I could, what do you make of the attempt 
to abduct Vladimir and to take him back to a Russian orphanage, 
as if the Russian Government owns this little boy rather than 
his loving parents and you, who have tried to provide help and 
assistance to him, and love.
    Mr. Browder. It's very clear. The VTB Bank and their co-
conspirators stripped the Bitkov family of all their wealth 
back in Russia. There was nothing more to get. The cupboards 
were empty. And so many people ask me when they look at this 
case: Why? Why are they doing this? And I believe that the 
answer is very similar to the answer of why they attempted to 
murder Sergei Skripal, which is Sergei Skripal had no more 
intelligence to provide the U.K. Government. But the purpose of 
both of these exercises for different audiences--and these are 
all directed toward domestic audiences--in the Skripal case, it 
was to say: If you betray us, it doesn't matter where you go, 
it doesn't matter when you go, we'll track you down anywhere in 
the world and we will kill you and we will kill your family. 
That's the message to their secret service.
    In the Bitkov case, the message for VTB Bank and other 
banks is: If we come and ask you to sign over your wealth to us 
don't object, because look what happened to the Bitkov family. 
We tracked them down in Guatemala. And we didn't just go after 
Igor Bitkov. We went after his wife, his daughter, and their 3-
year-old son. And we will destroy you and we'll destroy 
everybody. That's the message that they're trying to send to 
anybody they're trying to extract money from in Russia. So the 
next time they go and ask them for money, the people will say: 
Here you go. Let me sign the papers.
    Mr. Smith. Has CICIG or any Guatemalan authority ever 
provided justification why the prison sentences are so 
outrageously long, or a document?
    Mr. Browder. I'm not an expert on Guatemalan law, but the 
documents that I've seen, they just rotely write down the 
justification by the judge, which it reads like something out 
of Kafka, suppression of civil status, 5 years. Alteration of 
government document, 7 years--or 8 years. And none of this 
stuff makes any sense when you sort of step away and say, let's 
look at the real-world situation. As Mr. Alvarado has said--or, 
actually, I think it was Victoria who said, that members of the 
Nicaraguan criminal gangs that have killed 25 people were given 
suspended sentences for the same crime. How does that work?
    Mr. Smith. Let me ask you, what is the relationship between 
Guatemalan law enforcement and judicial authorities and CICIG? 
How easily can those authorities say no to a CICIG instruction 
regarding the prosecution of, say, the Bitkovs?
    Mr. Browder. I think this would be a question better for 
the Guatemalan lawyers.
    Ms. Sandoval. They have a very big power. They are not 
accountable to anyone in Guatemala. They have the power to 
destroy careers, professionals. There are many people that fear 
them. Might be people that have something beneath them that 
they can be chased for and that helps them control them, maybe. 
People--many judges try to please them. They try to please them 
what they are--they asked.
    Thank you.
    Mr. Smith. Okay. Could I ask you about Vladimir--what is 
the state of health right now? You know, how well or poorly is 
he doing? And----
    Mr. Alvarado. After he got out of the orphanage we've had 
to hire psychological therapy--intensive psychological therapy 
for him. He would wake up at night having awful nightmares. So 
he's 6 years old now. He had just turned three when I got him. 
And he has matured quite a bit. He has been forced to grow up 
really fast. And something really interesting that he says all 
the time, and that is, if I weren't a kid I would be in jail.
    Mr. Smith. And if I could, on Anastasia, who has suffered 
so much, having been raped, denied her medicine, as you've 
pointed out in your testimonies, in another manifestation of 
cruelty in this whole process--how is she faring?
    Ms. Sandoval. She's having a very hard time right now 
since, as I told you, she has been threatened to be sent to the 
Federico Mora National Mental Hospital. This hospital, as I 
told you before, has been qualified as the worst hospital in 
the whole American continent. And she fears to be free to 
express herself because she thinks people might interpret that 
as she's having a breakdown and she could be sent, because the 
Judge Yassmin Barrios, a few days after they were sent to 
Mariscal Zavala, ordered the National Forensic Science 
Institute to go and check on her to see if it was necessary to 
send her to that hospital. So she's living through a living 
hell, not being able to be herself. She is trying to fit in 
what she cannot fit completely.
    Mr. Smith. Thank you. If I could ask you, who is Mayra 
Veliz? Are you aware of any position she may have had in any of 
the organizations, entities that are relevant during the time 
period pertinent to the Bitkov case? And to the best of your 
knowledge, are you aware of CICIG or the attorney general of 
Guatemala investigating Mayra Veliz for wrongdoing or bringing 
any charges against her?
    Mr. Alvarado. Mayra Veliz is the secretary general of the 
Public Ministry. That means she's second in authority after the 
prosecutor or the attorney general himself. She worked in 
immigration policy. And she was the one who would sign off on 
documents or sign for national documents because she worked in 
that part of the Public Ministry responsible for foreign 
affairs involving foreign nationals. Now, there's a rumor that 
one hears constantly in the halls of the courts to the effect 
that Mayra Veliz is closely associated with Cutino 
International.
    So recently a lawyer visited Igor in jail and reported to 
him some information about Mayra Veliz to the fact that for 
some time when she worked in migration she would sign the 
documents for different foreign nationals, some of whom were of 
Arab descent, Pakistanis. And also, that she had signed the 
documents for members of ISIS, that is, the Islamic State. So 
this lawyer provided his name and phone number. He does not 
want to be a witness in Guatemala because he fears for his 
life. What he wants is for the United States to call him, to 
grant him special protection in exchange for his providing 
information on this criminal structure--information that he has 
on it.
    So this leader, as we identified him as being--the leader 
of this criminal structure that is the Cutino International 
that CICIG did not want to investigate is Marcos Cutino. This 
lawyer said that Marcos Cutino goes by different alias, 
different names, in the U.S. and Mexico, Canada and Guatemala.
    Mr. Smith. We're quickly running out of time, if you could 
provide--okay.
    Mr. Alvarado. Sorry. Something very interesting about the 
Bitkov case that's suspicious is that when we reported this 
criminal activity on the part of this criminal structure, 
Cutino International, 2 days after that, Thelma Aldana--that 
is, the prosecutor general of the country--or, we actually 
heard from lawyers who identified themselves as American 
lawyers, said that they were already aware of this case, and of 
the fact that we were reporting this case to the attorney 
general, and they wanted to meet with us about it. So these 
reports were also sent to CICIG. And they asked us what we--
okay, we asked for a hearing, a meeting with Thelma Aldana, the 
prosecutor general, and rather than being met by her, it was 
Mayra Veliz who received us. And so I think that this warrants 
that the U.S. Government conduct an in-depth investigation into 
what the true role of Mayra Veliz is.
    Mr. Smith. Thank you.
    Ms. Jackson Lee.

 HON. SHEILA JACKSON LEE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Ms. Jackson Lee. Let me thank the witnesses that have come 
this morning--Victoria Sandoval, Rolando Alvarado, and Mr. 
Browder. This commission, the Helsinki Commission, for those of 
us who are on it, is taken enormously seriously. And I thank 
the presiding chair.
    Our time is short so, Mr. Browder, let me just say to you 
that my outrage is mounting. And of course, as we are involved 
in the trail of Russian involvement in the 2016 elections, 
we're beginning to see certainly their despotic handprint 
across the world as it relates to humanitarian issues. So let 
me just quickly ask just one question which disturbs me.
    I was at the United Nations this past Monday. And I have 
long been a supporter of the value of the United Nations. So I 
am interested in how we can intervene and while the CICIG, a 
U.N.-backed organization to promote the rule of law, allowed 
the Bitkovs to be treated as scandalous passport violators. And 
is there any hope in that entity, and/or the United Nations--
because the husband and wife are still incarcerated. The 
daughter, I did not hear where, I'm sorry.
    Mr. Browder. Is incarcerated as well.
    Ms. Jackson Lee. Is incarcerated. And the son is now back 
in Guatemala.
    Mr. Browder. The son is with Mr. Alvarado.
    Ms. Jackson Lee. Yes. But can we just go to that question 
about how it was fraudulently made into an organization that 
would do what they did to the Bitkovs?
    Mr. Browder. The Russians are specialists at this. As I 
mentioned, they've abused Interpol, in my case. And let me 
point something out, which is that from everything that I've 
been told, the concept of CICIG is a good concept. To fight 
impunity and fight human rights abuses with a strong 
organization is a good concept, as is Interpol for going after 
fugitives.
    The issue is not the organization itself, but it's if that 
organization is being abused. And I've seen how Interpol's 
abused, which doesn't make the argument that we shouldn't have 
Interpol. It makes the argument that we should set up checks 
and balances and reviews so that abuses can't happen.
    It appears, from this gross abuse of process with the 
Bitkovs by CICIG that there's something wrong in their controls 
and their reviews. And this is a highly politicized story.
    There are many people at this hearing. Many people probably 
disagree with me about even bringing up CICIG. But how could I 
not when they've been involved in this terrible persecution of 
this family? And so there needs to be a review. And if it turns 
out that there was corruption or malfeasance, then those people 
need to be punished.
    And there needs to be a checks and balances in place so 
that doesn't happen in the future. There are many U.N. 
organizations, as Chairman Smith has told us, that function 
badly. And in the case of raping--in Africa, raping young girls 
by U.N. peacekeepers, bad things do happen by organizations 
that are set up for good purposes. There's a bad thing that's 
happened here. And it needs to be reviewed, and it needs to be 
reviewed aggressively and thoroughly.
    Ms. Jackson Lee. Let me just conclude my point and say that 
obviously peacekeepers are the soldiers that are offered by 
countries. I would give, not the U.N. a pass, but I would 
explain that they are, you know, extensions thereof, and 
certainly should not be condoned in their behavior. In this 
instance, I think the U.N. can be involved positively. I would 
like to have a way for the Helsinki Commission to--we have a 
lot of hearings--but to take this issue on. It is tragic what 
has happened, but I think the important point for the world to 
hear is that Russia acts as an international thug. And what has 
happened is the world allows it to do so. Not the Russian 
people--that I respect and love. I'm sure they're there doing 
all they can for their families. But we have to say to the 
Russian Government, the intelligence agency, Vladimir Putin, 
that enough is enough in thuggery. So I hope that we will 
pursue this, Mr. Chairman.
    And with that, I yield back.
    Mr. Smith. Thank you very much, Ms. Lee.
    And that is why we're having this hearing. This is the 
first step in what will be a series of not only hearings but 
action items. I agree with Mr. Browder that we need to suspend 
CICIG's funding. I mean, this is outrageous. This is cruel and 
degrading treatment. I mean, even the Convention Against 
Torture body--you know, the implementing body ought to be 
looking at this. To so mistreat people for a document?
    And the document was done--if my family were in that 
situation and we were fighting to get into another country 
because the goons from Russia were on the prowl to take out 
their lives, so you end up with a document to try to protect 
you. And then you get 19 years, 14 years, and 14 years--it is 
absolutely outrageous. This is cruel and degrading treatment. 
And we will pursue this aggressively.
    With that, I would ask unanimous consent that statements by 
Marco Rubio, James Lankford, and Michael Lee--three senators 
who couldn't be here today but wanted to express their strongly 
held opinion--be made a part of the record.
    Again, I thank you so much--we're only finishing up because 
we do have a whole series of votes. Thank you so much for your 
testimony and for your leadership.
    The hearing is adjourned.
    [Whereupon, at 11 a.m., the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Hon. Christopher H. Smith

    The Russian Government regularly pursues its vendettas 
beyond its borders, harassing and even murdering Russian 
emigres abroad--people who are on the Putin circle's target 
list for various reasons. The poisoning of Sergei and Yulia 
Skripal in England is one of the most recent examples to reach 
the news.
    The Kremlin's sadistic pursuit of the entire Bitkov family 
is in its way just as shocking as its cruel murder of 
Litvinenko and the attempted murders of the Skripals. The 
Bitkovs are still alive today, but they have been hounded for 
over a decade, to the opposite end of the world, and beyond the 
limits of human endurance--merely for resisting Putin favorites 
who sought to take over their successful paper manufacturing 
company.
    More shocking, the facts of the case strongly indicate--and 
we will hear testimony on this today--that the United Nation's 
International Commission against Impunity in Guatemala, or 
CICIG, became deeply involved in the Kremlin's persecution of 
the Bitkov family. Indeed that CICIG acted as the Kremlin's 
operational agent in brutalizing and tormenting the Bitkov 
family.
    Congress has a special responsibility in this matter 
because the United States is one of the largest contributors to 
CICIG's budget. There has been little congressional oversight 
of CICIG--it's clearly time for that to change.
    In the 1990s Igor and Irina Bitkov built the North-West 
Timber Company, acquiring and modernizing old factories to 
increase paper production. As their company grew, the Bitkovs 
took loans from several Russian state banks to finance further 
modernization. Their business prospered--grew to a value of 
hundreds of millions of dollars--and the family was approached 
by a powerful bank executive who sought to buy a majority share 
in the company at a significantly below-market rate. Other 
officials asked Irina to become politically involved in 
President Vladimir Putin's party.
    When the Bitkovs refused things got very ugly. Their 16-
year-old daughter, Anastasia, was kidnapped for several days, 
drugged, and repeatedly raped. Her parents ransomed her--paying 
the money to policemen, who said they were go-betweens to the 
kidnappers. Then the banks suddenly called in the loans, even 
though the Bitkovs had excellent credit. The family was 
threatened with imprisonment and death.
    Fearing for their lives, the family fled Russia. They found 
what they thought was legal refuge in Guatemala with the help 
of a Guatemalan law firm. They acquired Guatemalan passports, 
bought a house, learned Spanish, and gave birth to their second 
child, Vladimir.
    But the Kremlin caught up to them and VTB Bank, one of 
Russia's biggest state-controlled banks, often referred to as 
``Putin's Piggy Bank,'' filed a complaint against them in 
Guatemala, alleging use of false identification documents.
    While we don't know exactly what transpired internally to 
CICIC and the Guatemalan state agencies that work with them, it 
appears to have been taken up by the Guatemalan state and 
CICIG. In any case, the Bitkovs suddenly found themselves 
catapulted into what has become for them a horror without end.
    On January 15, 2015, Igor, Irina, Anastasia and Vladimir 
were awoken by an armed raid on their home--70 or so armed 
policemen woke them up, took them away, and spent 20 hours 
tearing apart their home and their office.
    It got much worse--the Bitkovs were put into cages for 9 
days. Their daughter--remember she had been kidnapped and 
repeatedly raped years earlier--was denied medication, now 
suffered a nervous breakdown. As the ordeal continued, she 
would later make multiple suicide attempts. Their infant son 
was torn away from them, not even permitted to stay with 
friends, and sent to an orphanage, where he sustained facial 
injuries, a chipped tooth, conjunctivitis, lost the ability to 
speak. When family friends recovered him they found that, when 
given food, little Vladimir immediately began hiding it under 
his shirt. I will not say more now about the Bitkov's harrowing 
ordeal--their lawyers will speak to that. Suffice it to say 
that Igor, Irina, and Anastasia have remained incarcerated 
since January 2015.
    In January of this year, despite an earlier appeals court 
ruling that the Bitkov's alleged offense was only 
administrative in nature and punishable with a fine, Igor was 
sentenced to 19 years in prison and Irina and Anastasia were 
sentenced to 14 years each. These sentences were far harsher 
than those given to Guatemalan officials who perpetrated the 
sale of passports--they are harsher than sentences given to 
rapists or murderers.
    What was CICIG's role in all of this? What we know for a 
fact is this: CICIG and a special branch of the attorney 
general's office worked together on the investigation and 
arrest of the Bitkovs--CICIG personnel participated in the raid 
on the Bitkov's home. Then CICIG and VTB Bank initiated and 
aggressively pursued the legal case against them, consistently 
arguing at every level of the judicial process against the 
Bitkovs, including against their appeal to be tried as migrants 
guilty of an administrative offense rather than a criminal one. 
CICIG--via its representative Claudia Gonzalez Orellana--
defended the role of the VTB Bank in the prosecution of the 
Bitkovs. Oddly, CICIG never prosecuted the law firm which 
provided the Bitkovs with the passports that destroyed their 
lives.
    As we will hear from Bill Browder: ``Inexplicably . . . in 
January 2015, a criminal case against the Bitkovs was opened at 
the direction of CICIG. Immediately after, 70 armed police 
officers raided the Bitkov's home, arrested Irina, Igor, and 
Anastasia and detained them in cages behind the parking garage 
in the main court building of Guatemala City.''
    CICIG was invited to participate in this event and brief us 
today, but declined. They have sent a note, requesting that it 
be made part of the record, as has VTB Bank. Without objection, 
that will be done.
    During questions, I will quote from CICIG's note--asking 
our witnesses about CICIG's account.
    Just yesterday afternoon, the Constitutional Court of 
Guatemala--the country's highest court--upheld an earlier 
decision by a lower court that had granted the Bitkovs' appeal 
to be considered migrants, and therefore, under international 
law, not able to be tried as criminals. It is not yet clear 
what this ruling will mean--it seems to mean that the family 
could be released from prison--but also that they could be 
deported back to Russia. Time will tell.
    I want to make an appeal to the Guatemalan government, to 
CICIG, to our government, and to the UN--this is a time to 
focus on restoring to this family as much as possible of what 
has been unjustly taken from them. Their safety must come 
first--we must assume that they remain targets for the Kremlin. 
They must not be returned to Russia. They have to be protected, 
and safe haven must be found for them.
    And then there must be accountability for the grotesque 
wrong that has been done to them. There must be further 
inquiry, and we must get to the bottom of this.
    It would be the worst irony if CICIG, which was created to 
battle for accountability for corruption, were now to seek only 
to avoid scrutiny and accountability. CICIG cannot credibly do 
battle against a culture of impunity if it demands impunity for 
itself.
    This is the time for CICIG--and its commissioner Ivan 
Velasquez--to throw open its doors, provide transparency, and 
give an honest accounting to the world of exactly what was 
CICIG's role in the cruelty that was wreaked on the Bitkovs. 
Unfortunately, up to now it has done nothing of the sort. I 
urge CICIG to change course now.

                Prepared Statement of Hon. Roger Wicker

    Thank you, Co-Chairman Smith, for convening this emergency 
hearing today. As our longest-serving commissioner, your 
doggedness to defend human dignity over the years has advanced 
the cause of freedom and saved countless lives around the 
world.
    As members of Congress, we have a particular obligation to 
ensure the causes and institutions funded by the United States 
remain consistent with our values and our interests.
    Today, the Commission will examine the harrowing experience 
of a Russian family who fell victim to an all-too-common 
corporate raider scheme in Russia. Facing violent extortion, 
financial ruin, and imprisonment, the Bitkovs sought refuge 
abroad. Using the services of what they believed to be a 
legitimate immigration firm, they received new identities from 
the Government of Guatemala and began a new life in Central 
America. A few years later, Kremlin agents tracked them down 
and colluded with the UN's International Commission against 
Impunity in Guatemala (CICIG) to sentence them to nearly twenty 
years in prison.
    We know the lengths Russia's kleptocracy will go to 
intimidate those who challenge its crimes. We remember the 
stories of Mikhail Khodorkovsky, whose successful company was 
expropriated and who spent 10 years in the Siberian gulag, and 
Sergei Magnitsky, who exposed corruption at the top of Russia's 
government and was tortured and killed for doing so. In the 
case of the Bitkov family, the Kremlin agents persecuting the 
Bitkovs are sanctioned by the United States. In addition, the 
CICIG, a powerful and active participant in this gross 
miscarriage of justice, is funded in large part by the United 
States.
    We are right to ask: Why would agents from one of the 
world's most ruthless kleptocracies join forces with an agency 
set up to combat corruption and impunity? Why would a UN 
institution receiving significant U.S. funding be so blind as 
to work with Vladimir Putin's cronies when its mission is to 
help Guatemala move beyond the corruption and impunity that 
plague its society? In this whole tragic affair, did the 
Kremlin exert any undue influence on CICIG?
    Yesterday's decision by Guatemala's Constitutional Court in 
favor of the Bitkovs is a welcome step, but this family remains 
in jail. They should be freed immediately. And yet, unless they 
receive asylum in Guatemala or another county, the Bitkovs will 
remain in grave jeopardy of being returned to Russia, where 
their long nightmare will surely continue.
    I would like to note the role of one of our witnesses in 
bringing this case to our attention and to the attention of the 
American people. In 2009, Mr. Browder brought a similar case to 
the Helsinki Commission involving his lawyer Sergei Magnitsky. 
At the time, Sergei was in pretrial detention in Moscow and 
being subjected to increasingly torturous conditions. My good 
friend Senator Ben Cardin chaired a hearing on Sergei's case, 
and we worked to bring attention to his plight.
    However, Sergei died suddenly, having been locked in an 
isolation cell and beaten by prison guards when he needed 
urgent medical care. We must learn from this tragedy and not 
allow it to happen to the Bitkovs.
    I will be working closely with the White House, National 
Security Council, and State Department to ensure the safety of 
this family, and I am prepared to use all available policy 
options to help resolve this injustice.
    The case of the Bitkovs illustrates the Kremlin's pattern 
of abuse involving the world's courts and legal institutions. 
Russia should be called out for the mafia state it is and the 
illegitimate and politically influenced decisions that come out 
of Russian courts not given the time of day. We must find a way 
to protect our institutions from malign outsider influence and 
avoid becoming unwitting participants in Kremlin vendettas.

                 Prepared Statement of Hon. Marco Rubio

    Thank you Co-chair Smith for convening this important and 
timely hearing of the Helsinki Commission titled ``The Long Arm 
of Injustice: Did a UN Commission Founded to Fight Corruption 
Help the Kremlin Destroy a Russian Family?''

    As I am unable to attend today's hearing, I would like to 
submit a statement for the record on the mistreatment of the 
Bitkov family by the Russian Government and the apparent 
miscarriage of justice that has so far unfolded in Guatemala.

    In 2008, the Bitkovs had their business stolen by a 
Kremlin-associated bank--which is currently under U.S. 
sanctions--and were forced from their home in Russia after 
threats from the Putin regime and its cronies, just like so 
many other entrepreneurs over the past two decades.

    Having lost their business and their homeland, the Bitkovs 
fled to several countries before finally landing in Guatemala 
in hopes of a safe and secure future. But, in Putin's Russia, 
merely stealing the Bitkovs livelihood wasn't enough. The 
Kremlin and those associated with it have perpetrated an 
international campaign of aggression against the Bitkovs, 
pressuring the Guatemalan government--including troublingly, 
the Guatemalan judiciary--to prosecute the entire Bitkov family 
on potentially trump-up charges.

    Unfortunately for the rule of law in Guatemala, Moscow 
seemed to have found a willing partner in the International 
Commission on Impunity in Guatemala (CICIG), which was set-up 
through the auspices of the United Nations to prosecute 
official corruption and political intimidation, not participate 
in it. I am concerned that CICIG, a commission funded by the 
United States, had potentially been manipulated by radical 
elements and Russia's campaign against the Bitkovs in 
Guatemala. And that this, in turn, may have led to the Bitkovs' 
suspiciously long prison sentences for crimes that normally 
would be afforded administrative fines, if any penalty at all.

    Moreover, the conditions that the Bitkovs have endured 
during their incarceration have been deplorable, as they have 
suffered malnourishment, disease, and the separation of the 
family, including the placement of Igor and Irina's youngest 
child in an orphanage against their expressed wishes.

    What all of this adds up to is Putin and his cronies 
apparently settling scores in the Western Hemisphere and 
undermining Guatemala's anti-corruption watchdog.

    This miscarriage of justice cannot be tolerated and today's 
hearing is a strong first step in bringing this matter to 
light. It is important for both Kremlin and Guatemalan 
officials to understand that the world sees what is happening 
and will not accept Russian malign influence in the Western 
Hemisphere or the destruction of Guatemalan judiciary.

    I was pleased to learn that on Thursday, April 26th, the 
Bitkov family was granted a protection order by the Guatemalan 
Constitutional Court.

    I am confident that the Guatemalan government under the 
leadership of President Morales will ensure this family's 
safety as they close this horrific chapter in their lives and 
begin a new journey away from the Kremlin's international 
campaign of aggression against them.

               Prepared Statement of Hon. James Lankford

    Mr. Chairman and Members of the Commission, thank you for 
accepting my statement for the record as I regrettably could 
not attend today's important hearing. I appreciate you and your 
staff's hard work to bring these stories and facts to light.
    I want to focus on something that has for too long gone 
overlooked and without proper oversight from the U.S. Congress: 
the International Commission against Impunity in Guatemala's 
(CICIG) expansion of authorities and prerogative beyond its 
mandate, and its level of effectiveness in building the 
capacity of Guatemala's own judicial system.
    CICIG's mandate clearly states that the entity was 
established to support the Government of Guatemala by 
investigating and disbanding illegal security forces and 
clandestine security structures operating in the country. 
According to the mandate, CICIG is also tasked with 
strengthening Guatemala's own justice system so that an 
international body is no longer needed in the future. It 
appears that, after more than a decade of operation in the 
country, there is an unknown amount of progress in creating 
capacity for Guatemala's own judicial system; if so, CICIG is 
faltering in its mission.
    Let me make clear that I support the intention and core 
mandate of CICIG to walk alongside Guatemala's public 
prosecutors to tackle the devastating effects that armed drug 
traffickers and gangs have had and continue to have on 
Guatemalan society and economy. The influence of illicit 
narcotics is the primary catalyst for the region's rampant 
crime and corruption, and the U.S. and international community 
should be a partner with the Guatemalan government in 
eliminating its malign influence. Yet we should be diligent in 
exercising oversight over any foreign entity which receives 
U.S. taxpayer funding to ensure our nation's own resources are 
used to advance national interests.
    I applaud the Commission for looking into the issue of the 
Bitkov family as well as exercising oversight over the U.S.-
funded CICIG.

               Prepared Statement of Hon. Michael S. Lee

    I am delighted my colleagues are holding this important 
hearing today, and I am grateful for the opportunity to share 
some thoughts and a statement on this important topic. It is 
truly unfortunate that it takes horrific events for us in 
America to stop and examine how our taxpayer dollars are being 
expended in support of supranational governance overseas in 
ways that wreak havoc and upend principles of sovereignty for 
others. My deepest sympathies are with the Bitkov Family today, 
and with all of those whose lives have been irreparably altered 
by egregious violations of law and order.
    The UN's International Commission against Impunity in 
Guatemala (CICIG) is an unwieldy beast. All organizations, even 
those created with the best of intentions, must have proper 
oversight and accountability mechanisms built-in. While 
initially created to root-out corruption and uphold rule of 
law, CICIG both in principle and application has become an 
extrajudicial, partial and unfair arbiter in Guatemala. Since 
its inception in 2007, the U.S. has spent more than $44.5 
million on CICIG. While our U.N. Ambassador Nikki Haley has 
called on the entity to remain intact, she has also called on 
the organization to be less overt and political, saying it 
should not be in the paper every day. Unfortunately, the 
continued conflicts of personalities between Guatemalan 
politicians and leadership of CICIG has kept many in deep 
conflict over various charges of corruption and challenges of 
leadership. No organization should be beholden to one man in 
the way at CICIG is intertwined with Commissioner Ivan 
Velasquez. An entity that is truly unbiased should continue its 
mission regardless of who is in charge. This is in part why 
we--and others who financially support CICIG--must increase 
oversight over this body, ensuring our funds are spent 
responsibly. CICIG should be operating to root-out real 
corruption, rather than building up or tearing down political 
winners and losers. It pains me to see sovereignty continually 
thrown by the wayside as has been the case in Guatemala. It is 
unfair to average citizens. It has been unfair to the Bitkovs. 
It is unfair to all who seek a free and prosperous Guatemala.
    Today I wish the CICIG never was established. I wish that 
we could have spent all these funds and all this time working 
yes on corruption issues, but also on transnational crime. Or 
on creating economic opportunity for both Guatemalans and 
Americans. Or on strengthen the actual government of Guatemala 
established by the people of Guatemala. As long as we keep 
using our resources to drive political wedges and undermine 
what freethinking human beings made in the image of God want 
their country to be, we will fail to seize the true 
opportunities for growth before us.

                   Prepared Statement of Bill Browder

    Co-Chairman Smith, Distinguished Members of the Helsinki 
Commission,
    Thank you for giving me the opportunity to present the 
story of the Russian Government's persecution of the Bitkov 
family in Guatemala.
    As many of you know, I was the client of Sergei Magnitsky 
in Russia. When he was murdered by Russian Government officials 
for uncovering state corruption, I started a campaign for 
justice, which led to this Commission spearheading the Sergei 
Magnitsky Rule of Law Accountability Act in 2012, and the 
Global Magnitsky Act in 2016.
    I wrote about the Magnitsky justice campaign in a book, 
entitled ``Red Notice,'' which was published in February 2015. 
Following the book's publication, I have received messages from 
people all over the world telling me about their reactions to 
the Magnitsky case and sharing their own stories.
    One of those stories came from a Russian woman named Irina 
Bitkov. She described how she and her family had been 
persecuted in a similar way to Sergei Magnitsky in Russia and 
when they fled, their persecutors from the Russian Government 
chased them all the way to Guatemala and ruined their lives.
    I am here today to share the Bitkov's story because they 
can't be here to do it themselves. They are currently in a 
Guatemalan prison where Igor Bitkov (the father) is serving a 
nineteen-year prison sentence and Irina and Anastasia Bitkov 
(the mother and daughter) are serving fourteen-year prison 
sentences, all for ``passport violations'' in Guatemala.
    I'd like to point out that I have no business relationships 
with the Bitkovs. I am receiving no compensation for the 
advocacy I am doing on their behalf. I am entirely motivated by 
the shocking injustice of what has happened to them.
    This story starts in the 1990's when Igor and Irina Bitkov 
became owners of a paper mill in Russia called the North West 
Timber Company. Over the course of the 1990's, they built a 
highly successful business that reached $80 million in profits 
by 2007. It was apparently valued by the Russian state bank, 
Sberbank, at roughly US$400 million.
    In the course of its business, the company obtained loans 
from Russian state banks, including Sberbank, VTB and 
Gazprombank in order to upgrade its facilities. Shortly after 
the loans were issued, the Bitkov's problems began.
    One of the bankers involved in issuing the loan approached 
Igor Bitkov and asked Igor to sell 51 percent of the business 
to him personally for US$25 million. As the business was worth 
many times that, Igor refused.
    Following this unwanted take-over attempt, a terrible 
trauma befell the Bitkov family. The Bitkov's then 16-year-old 
daughter Anastasia was kidnapped in St Petersburg. The 
kidnappers demanded a ransom, which took the Bitkovs 3 days to 
accumulate. They paid the kidnappers and Anastasia was 
released, but when she was safely back home, the family 
discovered that Anastasia had been drugged and repeatedly raped 
by her kidnappers. The ordeal left Anastasia deeply traumatised 
and set off a cascade of psychiatric ailments, which require 
medication and treatment to this day.
    Following that, and in a further escalation of the attempts 
to take over their company, the Russian state banks 
simultaneously called in the $158 million loans, forcing the 
company into bankruptcy.
    During the bankruptcy proceedings, the equipment of their 
factories was sold for a fraction of its true value.
    The Bitkovs were then told that they would be imminently 
arrested. This was the moment the Bitkov family fled Russia. 
They first travelled to Latvia, and then to Turkey. In Turkey, 
they sought out a country to settle in where they could avoid 
the risk of being sent back to Russia where they feared the 
worst. They chose Guatemala because it did not have an 
extradition treaty with Russia.
    They found an advertisement on the Internet from a Latin 
American law firm called Cutino Associates that specialised in 
immigration law and advertised its expertise in organizing 
Guatemalan immigration for US$50,000 per person. The family 
engaged Cutino and began the process of becoming immigrants to 
Guatemala.
    In their initial communications with the Cutino law firm, 
they explained that the reason for their immigration was to 
avoid persecution from Russia.
    Cutino explained to them that they could change their names 
in their immigration applications to avoid detection by the 
Russians. Cutino then submitted applications for the family and 
the Guatemalan migration service issued them new documents in 
new names. Anastasia kept her original name hoping that because 
she was not targeted with Russian criminal cases she would be 
ok to keep it.
    The family then began a new life in Guatemala. Igor became 
a high school math teacher at the Brillo De Sol School in 
Antigua, Guatemala. Irina became a drawing teacher at the same 
school, and Anastasia, who was beginning to regain her 
confidence after her terrible trauma in Russia, began a career 
in fashion.
    In January 2012, Irina Bitkov gave birth to a baby boy 
named Vladimir.
    It appeared that after their terrible ordeal in Russia 
where the family had lost nearly everything, they could begin a 
new chapter in their lives.
    Unfortunately, their dream of a new life came crashing down 
in late 2013.
    Investigators working for VTB Bank tracked down the Bitkovs 
in Guatemala. The head of the VTB Bank, Andrey Kostin, 
personally hired Henry Comte, one of the most prestigious 
attorneys in Guatemala and an alternate judge on the Guatemalan 
Supreme Court, to assist VTB in pursuing the Bitkovs in 
Guatemala.
    VTB and Comte's first attempt to go after the Bitkovs was 
to file a criminal complaint with the Attorney General's Office 
of Guatemala claiming VTB had been defrauded by the Bitkovs in 
Russia. VTB presented photocopies of forged documents in the 
Guatemalan court. These documents had already been rejected as 
forgeries in similar proceedings in the Russian courts. When 
the Guatemalan court requested the originals, VTB bank withdrew 
its application.
    VTB and Henry Comte then came up with a `plan B' to go 
after the Bitkovs. For several years before 2013, there had 
been an ongoing investigation into human trafficking and 
Guatemalan officials' complicity with human traffickers in the 
country. It was called the Migration Case and was supported by 
a U.N. organisation called CICIG whose mandate was to go after 
organised crime networks who previously enjoyed impunity in 
Guatemala.
    VTB and Comte successfully convinced CICIG to focus on the 
Bitkovs as part of the Migration Case in spite of the fact the 
Bitkovs were clearly not part of any organised network of 
traffickers.
    Inexplicably, VTB Bank gained the legal status as an 
`interested party' in the Migration Case against the Bitkovs 
with the support of CICIG. In January 2015, a criminal case 
against the Bitkovs was opened at the direction of CICIG. 
Immediately after, 70 armed police officers raided the Bitkovs' 
home, arrested Irina, Igor and Anastasia and detained them in 
cage behind the parking garage in the main court building in 
Guatemala City.
    While they were being held, Anastasia was deprived of her 
anti-depression medications and she had a severe psychiatric 
break-down. Anastasia and her mother were moved to a hospital 
under armed guard, and Igor was put into pre-trial detention at 
the Mariscal Zavala prison while the case awaited trial.
    The Bitkovs arranged for their family lawyer, Rolando 
Alvarado, to be a guardian for their 3-year-old child, 
Vladimir, while they were incarcerated. In spite of Mr. 
Alvarado's valid guardianship papers, the Prosecutor of 
Guatemala filed a motion with the court calling for Vladimir 
Bitkov to be placed in a state orphanage instead.
    At this point, the Russian Government also got involved. 
Pavel Astakhov, the Russian government's ombudsman for 
children's rights, publicly called for Vladimir Bitkov to be 
returned to Russia to be put into a Russian orphanage.
    The Russian foray failed because Vladimir is only a 
Guatemalan citizen, not Russian, and could not be returned to 
Russia. However, the Guatemalan prosecutor's motion succeeded 
and Vladimir was placed in a state orphanage.
    The family desperately applied to reverse the decision and 
get Vladimir out of the orphanage. It took 42 days for that 
application to be heard. When Vladimir finally emerged, he was 
examined by medical experts who found he had an upper 
respiratory infection; severe inflammation of the middle ear; 
conjunctivitis in both eyes; scars along the left eyebrow; and 
chipped front teeth. They concluded that he suffered from 
physical and psychological abuses in the orphanage.
    In the meantime, the case against the Bitkovs for passport 
violations moved through the courts, they were formally 
indicted as part of the CICIG Migration Case in April 2015.
    The Bitkov family appealed the indictment in the Appeals 
Court arguing that they were migrants and could not be subject 
to criminal prosecution applicable to traffickers. In December 
2017, the Guatemalan Appeals Court ruled in favour of the 
Bitkovs declaring that any passport irregularities were 
administrative offences punishable by a fine and as migrants 
they should not be under criminal penalty.
    However, CICIG and VTB were not happy with this decision 
and both immediately filed appeals against that court decision 
that would have freed the Bitkovs. While their appeal was 
pending, the decision was not in force.
    A few days later on January 5, 2018, the Guatemalan 
District Court found Igor, Irina and Anastasia Bitkov guilty as 
users of the criminal network in the Migration Case. The court 
sentenced Igor to 19 years in prison, and Irina and Anastasia 
to 14 years. CICIG trumpeted their court victory on their 
website pointing out that they prosecuted 39 people from the 
criminal network, including the Bitkovs.
    I understand that the 19-year sentence that Igor Bitkov was 
given was greater than sentences for manslaughter, rape, 
burglary and fraud in Guatemala. The sentences that all three 
of them were given appears to exceed the sentences of many of 
the government officials in Guatemala and traffickers who were 
part of the human trafficking network.
    There was no evidence that the Bitkovs bribed any 
government official, or were involved in any corruption.
    The Bitkovs, who did not speak Spanish and did not know 
anyone in Guatemala on arrival, relied on the law firm, Cutino 
Associates who presented themselves as legitimate immigration 
lawyers.
    It also appears that nobody from Cutino Associates who 
organised their passports and settlement documents has ever 
been prosecuted.
    No other customers of Cutino appear to have been tried, 
convicted and sentenced like the Bitkovs. In the list presented 
by CICIG, which includes 39 people in the Migration Case, 36 
were low and middle level officials from different Guatemalan 
governmental bodies and a few `coyotes' who physically moved 
people through Guatemala.
    So, what's going on here?
    There are two big Russian themes in this case, neither of 
which are unusual.
    First, in Russia people who run successful businesses are 
routinely victimised through a process called `Raiderstvo'. I 
was a victim of Raiderstvo and so were the Bitkovs. It is a 
standard practice in Russia where organized criminals work 
together with corrupt government officials to extract property 
and money from their victims. There are literally hundreds of 
thousands of businessmen in jail in Russia who are victims of 
this as well.
    The second theme is the abuse of international 
institutions. The Russian Government routinely abuses 
international institutions in order to persecute its enemies 
who are outside of Russia.
    In my case, the Russian Government tried six times to have 
Interpol arrest me after the Magnitsky Act was passed. The 
Russian Government also successfully recruited a senior 
official inside the Swiss Federal Police to stymie a Swiss 
criminal investigation into money laundering by Russian 
officials in the Magnitsky case. The Russian Government also 
succeeded in getting a Deputy Attorney General of Cyprus in 
charge of mutual legal assistance and extradition affecting the 
Magnitsky case, and many other politically sensitive cases, to 
inappropriately assist Russia in pursuing their enemies in 
Cyprus.
    In my opinion, the Russian Government succeeded in 
compromising CICIG and the Guatemalan Prosecutor for their own 
purposes in the Bitkov case.
    CICIG and the prosecutor's office have jointly taken up the 
Russian government's vendetta against the Bitkovs with no good 
explanation.
    CICIG did not distance itself from this Russian 
persecution. They've touted it on their website and they've 
actively tried to overturn the Bitkovs' vindication by the 
Appeals Court.
    Nor has VTB tried to hide its role in this case. In spite 
of the fact that VTB obtained no financial recovery for their 
alleged financial dispute with the Bitkovs, they became an 
interested party in a case involving something that had nothing 
to do with them in order to vindictively punish Igor Bitkov and 
his entire family.
    In the Wall Street Journal on April 4, 2018, Igor Kostin, 
the Chairman of VTB, says: ``VTB's action relating to the 
Bitkov family is an example of standard procedure in resolving 
financial business disputes through the available legal 
channels.''
    This is an appalling case in which the Bitkov family 
deserves justice and the United States has an opportunity to 
deliver them justice.
    CICIG is a U.N. organisation in which approximately 50 
percent of its budget comes from the US government.
    I do not believe that anyone in the US Congress or the US 
government ever envisaged that US tax dollars would be spent to 
support a Russian persecution of a family fleeing persecution 
in Guatemala. I would recommend that CICIG's funding be 
suspended until this situation is resolved.
    When I began the process of advocating for the Bitkov 
family, I discovered that CICIG is a highly contentious issue 
in DC and around the world. There are some people who are pro-
CICIG, there are others who are anti-CICIG.
    Up until 2 months ago, I had never heard of CICIG. I come 
into this case with no prejudices one way or another. I've gone 
where the evidence leads. So far, the evidence leads toward the 
conclusion about the involvement of this organisation in the 
Bitkov's persecution.
    As journalists from the Wall Street Journal and other news 
organization have started to investigate, CICIG has avoided 
answering a number of direct questions about their role in the 
Bitkov case and their support of VTB.
    When CICIG was invited to give evidence to Congress, they 
declined claiming as a U.N. organization, it is not accountable 
to any institution in the United States.
    They can't have it both ways. They can either be the heroic 
anti-impunity organisation that their mandate sets for them and 
not take on other country's vendettas, or the situation at 
CICIG needs to be cleaned up.

Bill Browder is the founder and CEO of Hermitage Capital 
Management, which was the investment adviser to the largest 
foreign investment fund in Russia until 2005, when Bill was 
denied entry to the country and declared a ``threat to national 
security'' as a result of his battle against corporate 
corruption. Following his expulsion, the Russian authorities 
raided his offices, seized Hermitage Fund's investment 
companies and used them to steal $230 million of taxes that the 
companies had previously paid. When Browder's lawyer, Sergei 
Magnitsky, investigated the crime, he was arrested by the same 
officers he implicated, tortured for 358 days, and killed in 
custody at the age of 37 in November 2009. Since then, Browder 
has spent the last 5 years fighting for justice for Mr. 
Magnitsky. The Russian government exonerated and even promoted 
some of the officials involved so Browder took the case to 
America, where his campaigning led to the U.S. Congress 
adopting the `Sergei Magnitsky Rule of Law Accountability Act' 
in 2012, which imposed visa sanctions and asset freezes on 
those involved in the detention, ill-treatment and death of 
Sergei Magnitsky (as well as in other human rights abuses). 
This law was the first time the US sanctioned Russia in 35 
years and became the model for all subsequent US sanctions 
against Russia. Browder is currently working to have similar 
legislation passed in Magnitsky's name across the European 
Union.

                Prepared Statement of Victoria Sandoval

    Good morning Co-Chairman Smith, Distinguished Members of 
the Helsinki Commission and to all the public present in this 
room, for me it is an honor to have been invited to this 
hearing as a witness to the Bitkov Case.
    My name is Victoria Sandoval, I am a lawyer and public 
notary and have worked on human rights and criminal law issues 
since 2006. In January 2015 I started supporting the Bitkov 
family in their judicial case, both personally and 
professionally.
Start of the relationship with the Bitkovs:
    I personally know the Bitkovs since they first came to live 
in the same condominium where I live, and because they have a 
son of the same age as my child. Irina Bitkov and I both took 
our babies to the same early stimulation course and it was 
there that we strengthened our friendship. I could see how 
Vladimir was growing.
    His parents were concerned to ensure that he would grow up 
knowing and loving his Russian culture, in fact, he spoke the 
Russian language better than Spanish, which he spoke with a 
noticeable Russian accent.
    They gave Vladimir a life full of care and love. Every day 
at 5 o'clock in the afternoon the three of them, Igor, Irina 
and Vladimir would be seen together with their two dogs walking 
through the condominium.
The raid:
    On Thursday, January 15th, 2015 in the early morning I 
could see a lot of police movement in the condominium and when 
I asked an employee why there was so much movement, he told me 
that CICIG was raiding the house of some Russians.
    The first thing I thought was that in the condominium there 
was another family of Russians because the ones I knew were 
very good people. However, when the guard told me the address 
of the house, I was surprised and went to see what it was all 
about.
    The blocks in the condominium are about 150 meters long, 
and the Bitkov house is at the far end of the block, and on 
both sides of the street I could see that it was full of 
official vehicles (General Prosecution Office, CICIG and 
National Civil Police). It was a very intimidating situation. 
It seemed to me as if they were pursuing them like dangerous 
criminals but I knew as their friend and an experienced 
criminal lawyer that they did not fit that profile.
Closing of the house:
    On Friday the 16th January 2015 I was finally able to see 
the Bitkov's house which had been locked up and was guarded by 
two police officers.
Carceletas:
    I learned from the news that the Bitkovs had been taken 
into custody and transferred to the carceletas at the Court 
House, to the Juzgado de Turno de Guatemala.
    The carceletas are open cages located in the basement of 
the Court House building where by Constitutional order, people 
should not stay in the carceletas for more than 24 hours. The 
Bitkovs were kept in the carceletas for 5 days, Irina and 
Anastasia and 9 days Igor! The carceletas are very filthy 
places where the bathrooms are only cleaned very occasionally. 
The state does not provide those who are inside the carceletas 
with food or water. I was shocked that neither the Russian 
ambassador nor any of his representatives were concerned about 
the welfare of his fellow citizens. He never went to the 
carceletas to see if the Bitkovs needed food, water or anything 
else. He was not even the least bit concerned about Anastasia's 
health.
    When the Bitkovs were taken into custody, the officials 
didn't let Anastasia take her medication with her. She was very 
scared because her life depends on the regular intake of 
medication. Not having her medication with her caused Anastasia 
to have a severe breakdown.
    A Judge ordered that Anastasia and Irina be transferred to 
a private psychiatric hospital because Anastasia was suffering 
a psychiatric breakdown that put her life at risk, as was 
established by a forensic psychiatrist from the National 
Institute of Forensic Sciences of Guatemala. However, the 
Penitentiary System refused to transfer them, which led to the 
imposition of a habeas corpus in favor of Anastasia and Irina.
    After the inquiries of the judge who handled the habeas 
corpus, two guards of the Penitentiary System sent a report 
saying that the General Director and the sub director of 
operations told them that they, Anastasia and Irina, could not 
be transferred to the hospital. The two guards asking the 
General Director if they have permission or not to fulfill a 
Judge's order is something very weird and unusual.
    According to a press statement the refusal was due to the 
fact that the Penitentiary System had no budget to pay for 
gasoline.
    Anastasia's breakdown was getting worse and following the 
Judge's decision to start a legal process for disobedience 
against the General Director and Subdirector of the 
Penitentiary System, the Penitentiary System accepted to 
transfer Anastasia and Irina, along with 50 Sistema 
Penitenciario Agents to the 10-room private mental health 
hospital Mederi. The hospital declined to accept Anastasia and 
Irina because so many guards could intimidate their other 
patients. Anastasia and Irina were returned to the court house.
    They were then transferred to an annex to the men's part of 
a prison where Igor was being held. Anastasia and Irina were 
put into a fenced off area of the men's prison. This area was 
only separated by a fence, which meant that Anastasia and Irina 
were not properly segregated from the male inmates who could 
clearly see them. Even more degrading for them was the fact 
that Anastasia and Irina were deprived of even the most basic 
right of privacy when using the bathroom which was also exposed 
to the male inmates. Anastasia and Irina would suffer daily 
humiliation of using the bathroom in full sight of the men 
inmates--many of whom were gang members. This was torture for 
them.
    On January 20th 2015, after remaining in the prison for 
five days, Anastasia and Irina were transferred to the 
Concepcion Hospital, where they had to stay for a year under 
armed guard.
    In Igor's case, after the raid he was transferred to the 
prison where he was sharing the 2 <greek-e> 6 meters cell with 
30 to 40 other detainees, most of them being gang members who 
were extremely aggressive and high-conflict people. There was 
not enough space for all the detainees to sit down and even 
less space to sleep. Consequently, Igor was deprived of sleep 
for 9 days and was then taken in front of the Judge to give his 
first testimony.
Igor's First Testimony
    At his first hearing, Igor was completely dumbfounded, he 
had not been provided with a translator and it was obvious that 
his Spanish was not good at that time.
    CICIG's attorney, Claudia Gonzalez Orellana clearly 
supported the participation of VTB by stating that the crimes 
committed in Russia should be investigated because they were 
related to those committed in Guatemala, despite the fact that 
later, she said that CICIG had no interest in whatever had 
happened in Russia.
    Likewise, CICIG's Attorney said that Igor had illegally 
entered Guatemala arguing that he had no migrating record. This 
was completely misleading she asked for Igor Vladimirovich 
Bitcov record instead of Igor Vladimirovich Bitkov record. 
CICIG's attorney also failed to mention that the Bitkovs 
entered Guatemala using their valid Russian passports so there 
can be no question that their entry was nothing other than 
legal.
    Judge Miguel Angel Galvez allowed VTB to be a provisional 
adhesive plaintiff arguing that it was important to know what 
had happened in Russia. This is despite the fact that the 
Russian Bank never presented any proof that the Bitkovs had 
committed any crime in Russia. Instead they presented 
photocopies of personal guarantees supposedly signed by the 
Bitkovs instead of originals, refusing to provide the originals 
for examination.
House Stripping
    One of the Bitkov's neighbors told us that he had seen a 
patrol car of the National Civil Police outside the Bitkovs' 
house and that he had seen policemen carrying children's toys, 
carts, tricycles from the house. So, the Bitkovs filed a 
complaint to investigate the theft, it was ratified and 
Veronica, Vladimir's nanny also went to testify since she knew 
what the Bitkovs used to have and what had been stolen.
    No investigation was conducted by the Public Prosecutor's 
Office.
    In January 2016 the Judge in charge ordered the opening of 
the sealed house. The house had been completely looted.
Acta de Haroldo Flores:
    In June of 2017 the Child Prosecutor of the Attorney 
General's Office (Procuraduria General de la Nacion--PGN), 
Harold Augusto Flores Valenzuela, was arrested in the case of 
Hogar Seguro, Virgen de la Asuncion. According to Igor, before 
Mr. Flores Valenzuela arrived at Mariscal Zavala, his lawyers 
went to talk with him to see what his attitude was with respect 
to Harold Flores after he had sent Igor's 3-year-old son, 
Vladimir, to the ``Love the Child'' orphanage where Vladimir 
was abused.
    Igor said that all he wanted was for Harold Flores to tell 
him why he had tortured Vladimir in the terrible way that he 
did.
    When Harold Flores was taken to Mariscal Zavala prison the 
first thing he did was to visit Igor and told him that he had 
been called by a CICIG official that told him that he had to do 
everything he could, so that the ``son of the Russians'' would 
be sent to an orphanage. After that he was visited by a woman 
who ratified that order. He would not tell Igor this woman's 
name because he feared for his life. So even though he saw that 
the reports on Vladimir's guardians were just fine he ignored 
them and asked Judge Maria Belen Reyna Salazar to send Vladimir 
to that infamous orphanage. Flores also told Igor that Judge 
Reyna Salazar received the same orders from CICIG. As a proof 
of what he said, he wrote down his name and phone number.
Power of Attorney to Henry Phillipe Comte Velasquez
    VTB Bank was represented in Guatemala by its agent Henry 
Phillip Comte Velasquez who is a founding partner of the Law 
Firm Comte & Font--Legalsa.
    Henry P Comte is an alternative Judge of the Constitutional 
Court. This is the same court where is pending the ruling at 
the Bitkovs ``amparo'' appeal (Constitutional appeal) against 
the indictment stating that any passport irregularities are 
administrative offences punishable by a fine. VTB/CICIG 
appealed that decision in the Constitutional Court.
    Curiously, the Power of Attorney given by VTB to Henry 
Phillip Comte Velasquez to act for VTB was signed by the 
President of the Board of Directors of VTB Bank, Andrey Kostin, 
himself, and not by the head of the legal department, as is 
normally happens with any Bank.
    This mandate was granted to Henry Phillip Comte Velasquez 
with ``Reserve of exercise'' that is to say that he can 
delegate it to another lawyer of the Law Firm Comte & Font--
Legalsa and his law firm still continues to exercise the powers 
granted under it.
Anastasia's illness
    Anastasia has been diagnosed with Bipolar Affective 
Disorder, Borderline Syndrome according to the psychiatric 
reports of the National Institute of Forensic Sciences of 
Guatemala. Her psychiatric disorders were triggered by her 
kidnapping in Russia in which she was repeatedly raped and 
drugged.
    As a result of her illness, Anastasia has attempted suicide 
five times.
    While at the Hospital Concepcion she suffered several 
crises due to the harassment of the National Civil Police 
agents who were guarding them. She was also greatly affected by 
the fact that Judge Maria Belen Reyna Salazar had sent her 
little brother to an orphanage and also that Judge Carol 
Patricia Flores Polanco sent several forensic psychiatrists to 
determine whether she had to stay at the hospital or whether 
she could be sent to the jail of Santa Teresa.
    The National Institute of Forensic Sciences ruled that 
Anastasia should not be sent to a prison because it could cause 
her to make further attempts to commit suicide.
    Ignoring this, the President for the Tribunal de Sentencia, 
Judge Iris Yassmin Barrios Aguilar ordered to send her to the 
Mariscal Zavala prison for 14 years.
    Currently she is under a lot of emotional pressure because 
she has been threatened by Judge Iris Yasmin Barrios Aguilar 
and by the warden of the Women's section of Mariscal Zavala to 
be transferred to the Federico Mora Psychiatric Hospital if she 
shows any sign of her illness (that triggers her anxiety).
    A few days after Anastasia was sent to prison, the 
President of the Tribunal de Sentencia ordered that Anastasia 
be evaluated by the National Institute of Forensic Sciences of 
Guatemala to determine whether it was necessary or not to send 
her to the Federico Mora National Mental Health Hospital, named 
as the worst in the world by the BBC. \1\
---------------------------------------------------------------------------
    \1\  https://www.bing.com/ videos/
search?q=hospital+psiquiatrico+federico+mora+bbc&&view= 
detail&mid=C8314C4E3EFF3B347152C8314C4E3EFF3B347152&&FORM=VRDGAR; 
https://www.bing.com/videos/
search?q=hospitalde+salud+mental+federico+mora+bbc&&view= 
detail&mid=F15517CDCB9A2C709187F15517CDCB9A2C709 187&&FORM=VRDGAR
---------------------------------------------------------------------------
Similar Cases:
    In Guatemala, the Palermo Convention is in force, as well 
as the Guatemalan Migration Law. Both laws establish that 
migrants cannot be criminalized for the possession or use of 
travel documents or ID documents. Even so, the State of 
Guatemala has decided to prosecute, illegally, these cases and 
has issued suspended sentences in other similar cases. I list 
below the most relevant:

A verdict was issued by the same court that sentenced the 
Bitkovs to penalties of 19 and 14 years in prison and expulsion 
from the country. The same 3 judges, in February 2018, that is, 
one month after they imposed custodial sentences on the 
Bitkovs, sentenced 2 members of the dangerous and notorious 
Mara Salvatrucha (MS-13) gang to conmutable prison sentences of 
5 years. Mr. Israel Antonio Cabrera Luna, whose alias is ``el 
demonio'' (the demon) and Mauricio Antonio Rivas Hernandez, 
whose alias is ``goat'' or ``patoja,'' were of Salvadorian 
nationality. These MS-13 gang members were not expelled from 
the country, unlike the Bitkovs. These MS-13 gang members did 
not cooperate at the investigation.
(* judgment Mara Salvatrucha process 
C-01031-2017-00005).

CICIG, in its statement number 042--2013 indicates that 2 
Colombians were convicted, for similar acts as the Bitkovs, but 
they only got 3 years suspended prison sentences and expulsion 
to their country of origin.

The case of Marcela Ortega Bejarano. She was a witness proposed 
by the General Prosecution Office who described the way the 
mafia operated within the General Directorate of Migration and 
within the National Registry of Persons (Civil Registry). In 
her testimony she recounts the way in which the documents were 
delivered, which is the same process by which the Bitkovs 
received their documents. She was also only given a 5 year 
suspended prison sentence and was expelled to her country of 
origin.
Refugee Status:
    It is important to clarify that the Bitkov Family had not 
requested asylum upon entry into Guatemala. They hired Cutino 
Associates International assuming that the Law Firm that would 
take care of all the legal procedures required to obtain 
Guatemalan citizenship. Cutino Associates International also 
advised them to change their names in order to avoid any 
persecution by the Russian Federation in Guatemala. The advice 
provided by Cutino Associates International made the Bitkov 
family think that their documents were absolutely legal so they 
did not need to request asylum or refugee status. They found 
Cutino Associates International via the internet. \2\
---------------------------------------------------------------------------
    \2\  https://web.archive.org/web/20090831041337/http://
www.cutinointernational.com:80/
---------------------------------------------------------------------------
    In February 2015, the Bitkovs filed the asylum application 
with the General Directorate of Immigration. The lawyer who 
made the filing told the Bitkovs that they had to appear 
personally to sign the initial request in front of the 
migration officer.
    Authorization was requested to Judge Carol Patricia Flores 
Polanco, to give them permission to go to sign the request for 
asylum, however, the Judge denied their request.
    This caused a delay in the filing of the asylum 
application. The Directorate General of Migration had offered 
to go to the Hospital and to Mariscal Zavala to obtain these 
signatures, however, they later retracted their offer.
    Finally, the authorization was given to the Bitkov's 
lawyers to obtain the signatures directly from the Bitkovs and 
the application for asylum was filed on July 23, 2015. The 
application for asylum was refused on 23 November 2016. The 
decision was notified to the Bitkovs on February 2017 so they 
appealed it before the General Secretariat of the Presidency on 
February 16, 2017 and is currently pending.
Russian Embassy:
    Irina and Anastasia were first approached by the Russian 
Embassy in Guatemala when they were in hospital. The officials 
from the embassy asked Irina to allow Vladimir to be given 
Russian citizenship. She refused. The only reason that the 
Russian Embassy sought Russian citizenship for Vladimir was to 
enable them to take Vladimir back to Russia and put him in an 
orphanage.
Call to justice:
    The evil with which this case has been handled is shocking. 
The Kremlin, through VTB bank has conspired with the Guatemalan 
justice system to (i) separate a 3-year-old boy from his family 
and send him to an orphanage where he was tortured (ii) to lock 
up in a prison a young woman with psychiatric disorders and 
finally (iii) condemn with ridiculous punishments a family who 
went to Guatemala in order to flee Russian persecution that was 
threatening to destroy their lives in contravention of Palermo 
Convention, Guatemalan Migration Law and an Order from the 
Constitutional Court.
    Anastasia told me once: I have suffered a lot, my life has 
never been even close to normal. I want to fight so my little 
brother can have a normal life, he still has time.

Victoria Sandoval is a criminal and human rights attorney 
representing the Bitkov family. She is a lawyer and notary from 
the Francisco Marroqu!n University, with 15 years of experience 
in different areas of the Law, among them Corporative, 
Notarial, Labor, Criminal, and Human Rights. Ms. Sandoval has 
worked providing technical advice to the Supreme Court of 
Justice of Guatemala regarding the Juzgados Penales de Turno. 
She is the founder of the Asociaci"n Guatemalteca de Espina 
B!fida and former board member of the International Federation 
for Hydrocephalus and Spina Bifida.

                 Prepared Statement of Rolando Alvarado

    Good morning Co-Chairman Smith, Distinguished Members of 
the Helsinki Commission and to all the public present in this 
room, for me it is an honor to have been invited to this 
hearing as a witness to the Bitkov Case.
    I'm a lawyer who specialises in banking matters as well as 
cyber and economic crimes. I first came across the Bitkov 
family 2 years before their arrests when I initially met Irina 
and Anastasia Bitkov. They set up a small film company in 
Guatemala and I registered the copyrights of the material they 
produced. Since then, I have become a close friend to the 
family and I am in fact the legal guardian of Vladimir Bitkov, 
Igor and Irina's son, who is now 6 years old.
    First, I would like to address the actions for which the 
Bitkov family have been accused of. The Bitkovs were criminally 
charged for using identity documents and passports issued by 
the State of Guatemala. The International Commission against 
Impunity in Guatemala (CICIG) and the General Prosecution 
Office argued that these documents were issued illegally.
    As a consequence, CICIG and the General Prosecution Office 
initiated a criminal prosecution, notoriously disproportionate 
and even more aggressive and shocking than high-impact crimes 
such as drug trafficking, murder or even terrorism. They 
channelled their criminal prosecution before special courts 
that know of crimes of greater risk. All this for what in 
reality constitutes a lack of migratory rights.
    CICIG has no right to participate as a complainant against 
the Bitkovs, since the mandate granted by the United Nations 
and the Government of Guatemala, establishes that the 
Commission has jurisdiction only to investigate crimes 
committed by members of the illegal security forces and the 
clandestine security apparatuses. The Bitkov family was not 
accused of being part of these illegal security forces and 
therefore does not fit into the functions entrusted to CICIG. 
This implies that CICIG exceeded its legal powers and abused 
its authority.
    In addition to violating its agreement, CICIG also violated 
the Palermo Convention. The Bitkovs were accused of using false 
identity documents and passports, however in accordance with 
the Palermo Convention--of which the State of Guatemala has 
signed and ratified--as migrants the Bitkovs are clearly exempt 
of criminal responsibility as well as exempt from criminal 
liability under the Migration Law of Guatemala.
    The actions for which the Bitkovs have been accused of do 
not even constitute a crime.
    Now allow me to set out a timeline:
    On January 15th 2015, CICIG and the General Prosecution 
Office with the support of the National Civil Police, conducted 
three raids. One in the family home, another in the Bitkov's 
office located 10km from their home and the third in the house 
of Anastasia's boyfriend, Mr. Andres Avelar.
    On January 15th 2015, I witnessed the search being carried 
out at the Bitkov's family home. This raid was documented in 
the minutes of January 15th 2015.
    The search began at 6 o'clock am. The prosecutors did not 
allow the Bitkovs to call their lawyer until 9 o'clock am, 3 
hours after the search began. For that reason, I showed up at 
the house at around 10 o'clock am. Upon my arrival, the Bitkov 
family felt extremely tormented, annoyed and helpless. They 
told me that the police entered the home whilst they were 
sleeping and did not leave the bedrooms for them to get dressed 
freely. Igor was forced to cover up his wife Irina and his 
daughter Anastasia so that they could get dressed.
    The search lasted a total of 20 hours, as it ended at 1:40 
am the next day. All this is confirmed in the document that 
contains the tally sheet. During the 20 hour raid, the entire 
family was placed in the living room.
    There was an excessive amount of public force as the house 
was invaded by dozens of police officers. The operation was 
carried out jointly with CICIG personnel and the General 
Prosecution Office. This excessive use of public force cannot 
be justified in any way. The crime investigated--the use of 
supposedly false documents--is not high risk nor does it 
constitute a crime. Whilst the raid was carried out I asked the 
prosecutor Stuart Ernesto Campo Aguilar the reason as to why 
there were so many policemen. He told me that it originated 
from the million dollar fraud case committed by the Bitkovs 
against a Russian bank. This bank was in fact managing the 
criminal process against the Bitkov family.
    During the raid, Anastasia panicked and fainted. Vladimir 
was also very scared to see so many heavily armed policemen 
inside of their house.
    The prosecutors and police seized: the family's vehicles, 
their jewellery and electronic devices, although they had no 
connection with the crime that was being investigated. 
Prosecutors indicated that any request for the return of these 
personal belongings had to be made before a judge. Concerning 
the jewellery, half was taken during the raid and the other 
half was left at the house.
    At the same time, two more raids were carried out, at their 
office and at Anastasia's boyfriend's house. A large number of 
police officers were also present. These raids were also not 
justified since the crime the Bitkovs were accused of was the 
use of identity documents.
    Once the raids had come to an end, 20 hours later the 
prosecutors and the police proceeded to execute the arrest 
warrants against the family in the early hours of the following 
day. Igor, Irina and Anastasia were handcuffed. Vladimir who 
was only 3 years old at the time was woken up by the police. I 
asked the prosecutors and the police officers not to wake the 
child because he would be frightened but they ignored my 
request and continued.
    After the Bitkov family was arrested, prosecutors indicated 
that the child would be transferred to an orphanage, however he 
first had to be transferred to court so that a judge could 
define his legal situation. They put him in a grey car 
belonging to the Attorney General's Office. They wanted to 
bring him alone but I requested that his nanny Mrs. Veronica 
Gonzales accompany him. She quickly prepared a suitcase with 
clothes and they both got in the car. I myself followed the car 
in my vehicle. Igor and Irina--anguished by their son's 
situation--begged me not to leave Vladimir seeing as they did 
not know anyone trustworthy which could take care of their son. 
They asked me to make sure that he would not go to an 
orphanage.
    Having arrived at the court located 25 km from the Bitkov's 
home at around 3 o'clock am in the morning, we hoped that the 
judge on duty would attend to us. We waited 2 hours as other 
cases were being processed. Before the hearing at around 5.30 
am, I asked the psychologist and social worker at the court to 
interview Vladimir and to determine whether he had a close bond 
with his nanny Veronica Gonzalez. Vladimir did not want to be 
separated from her and the court staff easily determined that 
the child had a close and affectionate bond with his nanny.
    The judge on duty, Attorney Marjorie Rene Azpuru Villela 
agreed with the court staff regarding the child's emotional 
bond with Veronica. Before handing over Vladimir, the judge 
asked me if as a lawyer I was committed to providing financial 
support--such as clothing, food, education expenses etc.--for 
Vladimir while his parents' situation was being resolved. I 
replied saying yes. Veronica and I were given joint custody of 
Vladimir. In order not to victimize him even more, we arranged 
for Veronica to move into my house seeing as the Bitkov's 
property was seized and closed off. Vladimir was basically left 
homeless and without his family, only in the company of 
Veronica and myself. The official date that Vladimir was given 
to us (his guardians) was January 16th 2015.
    Following Vladimir and Veronica moving into my home, we 
received a phone call from the Attorney General's Office, which 
deals with cases related to children in Guatemala. We were 
summoned so that psychological evaluations could be done on 
Vladimir and financial checks could be conducted on me and 
Veronica. The psychological evaluations were very positive. 
Vladimir clearly told the psychologist, Sheila Ninette Santiago 
Lopez, that it was his desire to be with Veronica. He said: 
``She takes care of me and gives me my feeding bottle''. This 
is stated in the judgment of March 18th 2015 of the Court of 
Appeals for Children.
    Although the psychological evaluations showed an 
affectionate bond between Vladimir and his nanny, we were 
summoned by another judge, Maria Belen Reyna Salazar. She told 
us that we had to attend court with Vladimir on February 10th 
2015 (almost a month after Vladimir had been living with us). 
On February 10th we presented ourselves with the child. We had 
a detailed report which showed that the child was well taken 
care of in terms of housing, education and food. We attached 
photographs, details of his diet and other important aspects. 
Although the psychological evaluations--which were conducted by 
the Attorney General's Office--were very positive, Judge Maria 
Belen Reyna Salazar, without asking the child's opinion (which 
is a serious abuse as the law obliges the child to be heard), 
arranged to separate him from us, arguing that we were not his 
relatives and there was doubt on who his parents were due to 
their passports and identity documents being the subject of a 
criminal investigation. The doubt surrounding the identity of 
Vladimir arose from a report that was sent by the Special 
Prosecutor's Office against Impunity (FECI) indicating that his 
identity was flawed. FECI is part of the General Prosecutions 
Office that investigates all cases which CICIG participates in.
    During the hearing on February 10 2015, the judge ordered 
the child, Vladimir Bitkov to be moved to a special room for 
abandoned children. Vladimir cried out loud but the judge 
insisted on moving him away from us.
    The judge decided to immediately separate Vladimir from me 
and his nanny despite being his legal guardians. Veronica tried 
to leave his feeding bottle but they did not take it stating 
that they already had the essentials for the child. They did 
not let us say goodbye to Vladimir, they only told us that 
after crying he had fallen asleep deeply. So when Vladimir woke 
up he was already with total strangers in an orphanage called 
``Love of the Child'' that is located in the interior of the 
country. The judge forbade us, his guardians and anyone else to 
visit Vladimir at the orphanage, arguing that it was for ``his 
safety.'' The day in which this separation took place was 
extremely shocking for us, and I do not want to imagine how 
shocking it was for Vladimir to wake up in an orphanage with 
strangers. From that day a very strong legal battle began, we 
fought to recover Vladimir. Following 42 days in the orphanage, 
a Child Appeals Chamber declared that the act of Judge Mar!a 
Belen Reyna Salazar had been illegal and ordered the child to 
return with his guardians.
    The day he left the orphanage, he was delivered to us in 
court. Vladimir looked very scared and did not speak with us. 
We travelled 20 kilometers he only spoke once to ask to go to 
the bathroom. We made our way to the hospital where his mother 
and sister were being kept. When Vladimir saw his mother you 
could tell he was extremely upset. He did not speak to her 
either. When he asked for food we bought him pizza. We found it 
very disturbing that Vladimir put a number of pieces of pizza 
inside his shirt, as if he was saving food. This made us think 
that he had gone hungry in the orphanage and was not fed 
properly. We then discovered he had a chipped tooth and an 
infection in both his eyes. We asked the doctor to give him a 
medical examination in which he later on stated that Vladimir 
had a scar on his eyebrow, chipped front teeth, conjunctivitis, 
an upper respiratory infection, severe inflammation of his ear 
and had clearly suffered from physical and psychological abuse. 
After returning from the orphanage Vladimir was another child, 
he no longer used his feeding bottle, he did not speak to 
anyone and he wanted to be alone. Prior to this, he was an 
outgoing, happy and social child and when he returned he was 
remote and introverted. He was clearly still afraid. Support 
was sought from a psychologist to give him therapy for several 
months. Many nights Vladimir woke up crying, with a face of 
fear, and anguish.
    Because of the way Vladimir left the orphanage, we filed a 
complaint with the Human Rights Ombudsman. It is clear that 
Judge Maria Belen Reyna Salazar committed an illegal verdict as 
there was no legal and moral justification for Vladimir being 
sent to an orphanage. The Human Rights Ombudsman of Guatemala 
issued a resolution on February 8, 2016 where he stated that 
Vladimir's rights were clearly violated by the judge and the 
director of the orphanage, ``Love of the Child''.
    When leaving the orphanage Vladimir and Veronica were in my 
residence for almost a year. On the 15th January 2016 Irina and 
Anastasia were granted house arrest and were able to leave the 
hospital where they were held for 1 year. Vladimir returned 
home with his mother, his sister and his nanny.
    I would now like to testify about the illegalities that 
arose in the criminal process.
    I will start with the action of VTB Bank:
    From the beginning of the process, VTB bank justified its 
participation in the process by claiming that the Bitkovs had 
committed fraud against the bank. The participation of VTB bank 
was always supported and defended by CICIG through its 
representative Claudia Gonzalez Orellana, who declared before 
the judge that the events that occurred in Russia were related 
to the events that occurred in Guatemala and that VTB bank 
should be allowed to defend its interests in Guatemala. An 
audio recording of the hearing which took place on January 22d 
2015 is available.
    Prior to presenting the accusations, that is, the pre-
hearing procedure where the sentence is handed down, the main 
judge was informed of two fundamental points: (i) That the 
Bitkov family are migrants and that the actions for which they 
are accused of does not constitute a crime under the Palermo 
Convention (signed by Guatemala). Furthermore, (ii) under 
Guatemala's own Migration Law, it states that no migrant may be 
prosecuted criminally for obtaining false identity documents. 
These rules state that the criminal subject is not the migrant 
since the only responsible criminal is the trafficker, which in 
the case of the Bitkovs was Cutino Associates International. 
Cutino Associates International is a large immigration law firm 
in Guatemala and Latin America which has never been 
investigated by CICIG even though the Bitkov family filed a 
number of criminal complaints against them. CICIG and the 
General Prosecution Office have a clear knowledge of these 
complaints.
    In addition, Igor Bitkov filed a complaint in May 2016 
against Cutino Associates International addressed directly to 
the Attorney General of the Republic of Guatemala, Mrs. Thelma 
Aldana.
    Several days later, on the 18th May 2016, Irina Bitkov 
filed another complaint with the Attorney General. The 
accusations against Cutino Associates International have never 
been investigated, although Irina Bitkova specifically stated 
them in her complaint. She provided the telephone numbers that 
appear on Cutino Associates International's website and asked 
that the IP addresses, the entry logs to the site and the name 
of the person who acquired the domain on the internet be 
investigated as well as setting out other useful means of 
investigation for that case. In spite of this, no meaningful 
investigation was conducted.
    Igor Bitkov also specifically stated that he made a wire 
transfer to Cutino Associates International and later on 
requested CICIG to investigate and trace this bank transfer, 
which they failed to do. Instead of investigating the real 
perpetrators, CICIG accused the true victims of this crime.
    In addition to the two complaints filed with the Attorney 
General against the company that processed the identity 
documents for the Bitkovs--that is, Cutino Associates 
International--Irina Bitkov reported these facts directly to 
the Commissioner Ivan Velasquez Gomez on the 18th May 2017. In 
addition, we have a video where it was clearly recorded that 
Irina Bitkov personally spoke with Mr. Ivan Velasquez. She gave 
him documents which demonstrated the political persecution by 
the Russian Government which they were victims of, and which 
had to be investigated. The Bitkovs also denounced that the 
CICIG representative repeated word for word the infringed 
complaint of VTB bank without having any proof. Commissioner 
Velasquez said he would review the case but did nothing about 
it. CICIG never investigated Cutino Associates International 
nor ceased to support it.
    Additionally, Igor Bitkov gave power of attorney to a 
lawyer from Cutino Associates International--named Mr. Edwin 
Orlando Xitumul Hernandez--to conduct all necessary action in 
order for the Bitkovs to receive passports. This power of 
attorney constitutes further evidence that Cutino Associates 
International was given authority to do whatever was required 
by law to obtain passports. CICIG should have investigated the 
criminal structure that is Cutino Associates International, 
however an investigation was never opened.
    The defense's other argument during the trial was that VTB 
bank should be excluded from the criminal proceedings since the 
claim for payment of a supposed debt is not a criminal matter. 
In addition, there was no proof of the existence of such debt 
to begin with.
    The Bitkovs asked a Civil Court to require VTB Bank to 
present the original bail document that constituted the main 
document of its complaint. VTB Bank refused to provide to the 
Court any documents to support their complaints, arguing that 
the Guatemalan Courts did not have jurisdiction to see the 
claim. However, Judge Ericka Aifan, at the request of CICIG and 
the General Prosecution Office, rejected the defense's 
arguments and proceeded with hearings against the Bitkovs. The 
other defendants in the case were effectively officials and 
state employees who formed the criminal structure. The Bitkovs 
were the only migrants in this case.
    During the hearing, the senior official of the passport 
office declared that thousands of passports were issued with 
irregularities. In addition, the witness Carlos Rene Gomez 
Diaz, stated that the General Directorate of Immigration issued 
between 1 and 3 passports with irregularities per week in favor 
of foreigners. However, only the Bitkovs were sentenced to 
prison. Other foreigners were sentenced to suspended sentences 
meaning that instead of going to jail they had to pay a fine 
and return freely to their country of origin.
    Another illegality that arose during the criminal process 
was that prior to the sentencing of the Bitkov family--during 
the hearing--a higher constitutional court granted an order in 
favor of the Bitkovs, whose ruling stated that the migrants 
could not be prosecuted criminally in accordance with the 
provisions of the Palermo Convention and the Migration Law of 
Guatemala. However, the Court chaired by Judge Yassmin Barrios 
did not comply with that court order and continued the hearing 
which later sentenced the Bitkov family with extraordinary and 
illegal penalties.
    The court that sentenced the Bitkovs, in addition to 
applying the maximum prison sentences, ordered the deportation 
of the Bitkov family from the country, even though we indicated 
that their lives are in danger if they are expelled back to 
Russia. In addition, on the day of the conviction, that is, on 
January 5, 2018, the Court revoked the house arrest of Irina 
and Anastasia, and they were at once again sent to prison that 
same night. In addition, I told Judge Yassmin Barrios that 
Anastasia Bitkova suffered from a psychiatric illness and had 
five documented suicide attempts, and that there are reports 
from forensic psychiatrists in Guatemala that she cannot be 
imprisoned because there is a risk of death. This did not 
matter to the Court and she was sent to prison together with 
her mother. In addition, the Court did not take into 
consideration the best interests of the child Vladimir Bitkov 
and ordered a second separation from his family.
    On the day of the conviction Irina and Anastasia were 
remitted to the court jail. That day, January 5, 2018 was one 
of the coldest days in Guatemala. Together with Attorney 
Victoria Sandoval and myself, they did not let us bring them 
clothes despite the intense cold. We had to enter and leave our 
own clothes so that they had a little heat, since they were 
shivering from the cold. We filed an immediate complaint 
against the police for their inhuman actions which was only 
taken into consideration days later and eventually ignored.
    The above is what I have to say in this brief, in relation 
to the case of the Bitkov family. The family at this moment is 
suffering because they are facing illegal sentences that were 
imposed by CICIG and the General Prosecution Office.

    Rolando Alvarado is the founding partner of the law firm 
Corpolegal. He is currently the director of the judicial area, 
which includes civil, criminal, administrative, and labor 
litigation. He is a lawyer of Banco Internacional, Sociedad 
Anonima y Financiera MVA, Sociedad Anonima, where he knows all 
the matters of judicial claim in civil and criminal matters.
    He is an expert in Cybernetic matters, such as cyber-
attacks, electronic signature, electronic evidence, IT laws. He 
has participated as a member of the Drafting Commission of the 
Guatemalan Computer Crimes Act and the Law to prevent and 
punish the theft of cell phones and extortion, among other 
regulatory Acts. In the field of Cybercrime and large scale 
Internet crime investigation, he has been trained by the 
Department of Justice of the United States of America in 
collaboration with the Organization of American States (OAS).
    Due to his experience as a member of the Drafting 
Commission of the Computer Crimes Act, he has been invited as a 
lecturer at the following institutions: (a) The National 
Council of Science and Technology (CONCYT); (b) The Legislation 
and Constitutional Points Commission of the Congress of 
Republic of Guatemala; (c) The Ministry of Defense of the 
Republic of Guatemala; (d) Computer Security Response Committee 
for Guatemala; (e) Guatemalan Association of Exporters 
(AGEXPORT); (f) The Registry School, among other institutions.
    He is co-author, together with the General Coordinator of 
the Computer Security Response Committee for Guatemala, 
Lieutenant Colonel and Bachelor of Computer Science, Ronald 
Morales, of the book called ``CIBERCRIMEN,'' which includes the 
legal and computer aspects related to cybernetic attacks, 
computer crimes, electronic evidence and research aids, 
national and international legislation on cybercrime.
    As a university professor, at bachelor and post-graduate 
level, he has taught the courses of: (a) Civil Law; (b) Civil 
and Commercial Procedural Law; (c) Intellectual Property; and, 
(d) Corporate law. He has advised theses at the University of 
San Carlos de Guatemala, Mariano Galvez University and 
Francisco Marroquin University. Also, he has been a member of 
the examination boards of the professional technical and thesis 
exam at the Mariano Galvez University in Guatemala and at the 
University of San Carlos in Guatemala.
    As a legal professional, he has held the following 
positions: (a) Director of the Judicial Area of the law firm 
``Aguilar & Zarceno''; (b) Advisor in the Legislation and 
Constitutional Points Committee of the Congress of the 
Republic; (c) Alternate Chief of the Legal Department of Banco 
de Exportacion, S.A. (BANEX); among others.

                       
                       M A T E R I A L    F O R
                          T H E    R E C O R D

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
 
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
